<html>
<title> - ASSESSING FIRST RESPONDER COMMUNICATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                ASSESSING FIRST RESPONDER COMMUNICATIONS

=======================================================================

                                HEARING

                               BEFOR ETHE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2017

                               __________

                           Serial No. 115-32

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
28-819 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>                              
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
                 Steven S. Giaier, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
           Moira Bergin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Rear Admiral Ronald Hewitt (USCG, Ret.), Director, Office of 
  Emergency Communications, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Mr. Edward Parkinson, Director, Government Affairs, First 
  Responder Network Authority:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

 
                ASSESSING FIRST RESPONDER COMMUNICATIONS

                              ----------                              


                       Thursday, October 12, 2017

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Daniel M. Donovan, 
Jr., (Chairman of the subcommittee) presiding.
    Present: Representatives Donovan, McSally, Payne, and 
Langevin.
    Mr. Donovan. I apologize before we begin that I am losing 
my voice, but I appreciate your participation and your 
attendance here today, and we look forward to hearing from you.
    The Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order. The subcommittee is meeting 
today to receive testimony on the state of first responder 
communications. I now recognize myself for an opening 
statement.
    I want to welcome all witnesses here this morning on an 
issue that is vital to our homeland security: The ability of 
our first responders to communicate. As noted in the 2006 
National Interoperable Baseline Survey, there is a, ``direct 
correlation between effective communications, interoperability, 
and first responders' ability to save lives.''
    In my home town of New York City, we know this all too 
well. Both the Office of Emergency Communications and First 
Responder Network Authority were established in the wake of the 
communications failures of 9/11 and later in Hurricane Katrina. 
We have made a great deal of progress since those fateful 
disasters. States and localities have invested billions of 
dollars in their communications networks, including governance, 
training, and equipment.
    The Office of Emergency Communications has completed two 
National emergency communications plans and has provided 
guidance and technical assistance to State and local 
stakeholders. This year, we have reached another milestone: 
FirstNet, in its fifth year since its establishment in the 
Middle-Class Tax Relief and Job Creation Act, awarded a 
contract to AT&T to build out the Nation-wide public safety 
broadband network. To date, nearly half of States and 
territories have committed to opt-in to that network.
    We know this work is making a difference. In contrast to 9/
11 and Hurricane Katrina, first responder networks for the most 
part remained operable during the response to Super Storm 
Sandy, even while commercial networks experienced outages. It 
is my understanding that first responder networks were largely 
able to withstand the impacts of Hurricanes Harvey and Irma. I 
am interested in hearing from our witnesses and their 
assessments of how these networks fared during the recent 
hurricanes.
    But despite these advancements, challenges remain. Earlier 
this year, this subcommittee joined with the Subcommittee on 
Cybersecurity and Infrastructure Protection to hold a 
roundtable on cyber risks to emergency communication networks. 
We have seen the evolution of communications technology, 
providing enhanced capabilities for first responders, but with 
these benefits come the risk of cybersecurity vulnerabilities, 
as many of these systems and applications are IP-based and 
interconnected.
    We must ensure our Nation's first responders are aware of 
cybersecurity threats and can work to address them. As we 
prepare for first responders to have access to the Nation-wide 
public safety broadband network, we cannot forget that first 
responders will continue to depend on land mobile radio for 
mission-critical voice communications.
    I am concerned about a requirement that first responder 
radio networks operating on the T-Band must migrate off that 
spectrum by 2021. This will have significant impact on a number 
of major metropolitan areas, including New York City. Studies 
have suggested that there isn't sufficient alternative spectrum 
for these jurisdictions to use. In taking steps forward, with 
the public safety broadband networks, we must ensure we are not 
taking steps back for mission-critical voice network on which 
first responders rely on.
    I am looking forward to our witnesses' assessment of the 
current state of first responder communications and what more 
needs to be done to ensure first responders have the 
connectivity and information to continue to serve our 
communities.
    [The prepared statement of Mr. Donovan follows:]
              Statement of Chairman Daniel M. Donovan, Jr.
                            October 12, 2017
    I want to welcome our witnesses here this morning on an issue that 
is vital to our homeland security: The ability of our first responders 
to communicate.
    As noted in the 2006 National Interoperability Baseline Survey, 
there is a ``direct correlation . . . between effective communications 
interoperability and first responders' ability to save lives.''
    In my home town of New York City, we know this all too well. Both 
the Office of Emergency Communications and First Responder Network 
Authority were established in the wake of the communications failures 
on 9/11, and later, in Hurricane Katrina.
    We have made a great deal of progress since those fateful 
disasters. States and localities have invested billions of dollars in 
their communications networks, including governance, training, and 
equipment.
    The Office of Emergency Communications has completed two National 
Emergency Communications Plans and has provided guidance and technical 
assistance to State and local stakeholders.
    And this year we've reached another milestone. FirstNet, in its 
fifth year since its establishment in the Middle Class Tax Relief and 
Job Creation Act, awarded a contract to AT&T to build out the Nation-
wide public safety broadband network. And to date, nearly half of 
States and territories have committed to opt-in to that network.
    We know this work is making a difference. In contrast to 9/11 and 
Hurricane Katrina, first responder networks, for the most part, 
remained operable during the response to Superstorm Sandy, even while 
commercial networks experienced outages. It is my understanding that 
first responder networks were largely able to withstand the impacts of 
Hurricanes Harvey and Irma. I am interested in hearing our witnesses' 
assessments of how these networks fared during the recent hurricanes.
    But, despite these advancements, challenges remain. Earlier this 
year, this subcommittee joined with the Subcommittee on Cybersecurity 
and Infrastructure Protection to hold a roundtable on cyber risks to 
emergency communications networks.
    We've seen the evolution of communications technology, providing 
enhanced capabilities for first responders. But, with those benefits 
come the risk of cybersecurity vulnerabilities, as many of these 
systems and applications are IP-based and interconnected.
    We must ensure our Nation's first responders are aware of 
cybersecurity threats and can work to address them.
    And, as we prepare for first responders to have access to the 
Nation-wide public safety broadband network, we cannot forget that 
first responders will continue to depend on land-mobile radio for 
mission critical voice communications.
    I am concerned about a requirement that first responder radio 
networks operating on the T-Band must migrate off that spectrum by 
2021. This will have significant impact on a number of major 
metropolitan areas, including New York City, and studies have suggested 
that there isn't sufficient alternative spectrum for these 
jurisdictions to use.
    In taking steps forward with the public safety broadband network, 
we must ensure we're not taking steps back for mission-critical voice 
networks on which our first responders rely.
    I'm looking forward to our witnesses' assessment of the current 
state of first responder communications and what more needs to be done 
to ensure first responders have the connectivity and information to 
continue to serve our communities.

    Mr. Donovan. The Chair now recognizes the gentleman from 
New Jersey, my friend, Mr. Payne, for an opening statement that 
he may have.
    Mr. Payne. Good morning, Mr. Chairman. We will try to 
accommodate you, since your voice is leaving you. You know, 
when you stay on----
    Mr. Donovan. It has left.
    Mr. Payne [continuing]. CNN and MSNBC as much as you have 
been on there the last several days, I would assume that your 
voice would be going.
    But, you know, I want to thank you, first, for holding 
today's hearing on first responders' communication. This is the 
subcommittee's first hearing on emergency communications since 
the 113th Congress. So I am eager to hear about the progress 
both the Office of Emergency Communications and FirstNet have 
made in advancing interoperable emergency communication 
efforts.
    Since I joined this committee in 2013, I have been a strong 
advocate of policies to improve interoperable emergency 
communication capabilities, from ensuring interoperable 
communication capability among the components of the Department 
of Homeland Security to helping bolster State and regional 
governance structures that inform emergency communication plans 
and procedures.
    That said, I have been concerned to learn that the 
dwindling number of dedicated full-time State-wide 
interoperability coordinators, or SWICs, I am concerned about 
the reduction in full-time SWICs and the disbanding of other 
governance structures might undermine progress made toward 
improving emergency communication capabilities since 9/11. 
SWICs and related Government structures have been integral in 
ensuring that emergency communication plans are coordinated, 
up-to-date, and exercised.
    Every first responder I have ever spoken to has told me 
that the key to interoperability is not technology, it's 
governance. So I am interested to know why States are no longer 
funding full-time SWICs and what Congress can do to help 
mitigate the impact of less robust governance.
    I am pleased that New Jersey was among the first States to 
opt-in to FirstNet. I am encouraged by the potential it holds 
for first responders and look forward to seeing it 
revolutionize emergency communications. The capabilities 
FirstNet promises will save lives if the network is built and 
managed properly.
    That said, I am concerned about the requirement that first 
responders in certain major metropolitan areas, like Newark and 
Jersey City, vacate the T-Band by 2023. Unless Congress acts, 
first responders in my district will get kicked off of their 
spectrum and be forced to relocate.
    Before I close, Mr. Chairman, I would like to send my 
thoughts to those suffering in Puerto Rico and U.S. Virgin 
Islands. As Ranking Member of the Subcommittee on Emergency 
Preparedness, Response, and Communications, it is clear to me 
that something in our National preparedness doctrine has 
failed. I look forward to having the opportunity for this 
subcommittee to examine what went wrong in Puerto Rico and the 
Virgin Islands and why, so we can make sure people in our 
country never suffer like this again.
    With that, I thank the witnesses for being here today, and 
I yield back the balance of my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                            October 12, 2017
    This is the subcommittee's first hearing on emergency 
communications since the 113th Congress. I am eager to hear about the 
progress both the Office of Emergency Communications and FirstNet have 
made in advancing interoperable emergency communications efforts.
    Since I joined this subcommittee in 2013, I have been a strong 
advocate of policies to improve interoperable emergency communications 
capabilities.
    In fact, I authored a number of measures to help DHS achieve 
interoperability among its components and to help bolster State and 
regional governance structures for emergency communications planning.
    That is why I have been concerned to learn about the dwindling 
number of dedicated, full-time State-wide Interoperability 
Coordinators, or SWICs.
    I am concerned about how the reduction in full-time SWICs--and the 
disbanding of other governance structures--might undermine progress 
made toward improving emergency communications capabilities since 9/11.
    SWICs have been integral in ensuring that emergency communications 
plans are coordinated, up-to-date, and exercised. Every first responder 
I have ever spoken to has told me that the key to interoperability is 
not technology, it's governance.
    So I am interested to know why States are no longer funding full-
time SWICs and what Congress can do to prevent weakened governance.
    I am pleased that New Jersey was among the first States to opt in 
to FirstNet. I am encouraged by the potential it holds to revolutionize 
emergency communications. The capabilities FirstNet promises will save 
lives if the network is built and managed properly.
    That said, I am concerned about the requirement that first 
responders in certain major metropolitan areas--like Newark and Jersey 
City--vacate the T-band by 2023. Unless Congress acts, first responders 
in my district will get knocked off their spectrum and be forced to 
relocate.
    Before I close, Mr. Chairman, I would like to send my thoughts to 
those suffering in Puerto Rico and the U.S. Virgin Islands. As Ranking 
Member of the Emergency Preparedness Subcommittee, it is clear to me 
that something in our National preparedness doctrine has failed.
    I hope that in the very near future, this subcommittee can take a 
hard look at what went wrong in Puerto Rico and the U.S. Virgin Islands 
so we can make sure people in our country never suffer like this again.

    Mr. Donovan. The gentleman yields. If any other Members 
attend, they will be reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            October 12, 2017
    From Texas and Florida to Puerto Rico and the U.S. Virgin Islands, 
the 2017 Hurricane Season has been devastating. It has been a true test 
of emergency response capabilities including the resiliency of our 
emergency communications systems.
    Before discussing emergency communications, I would like to share 
some observations from my trip to Puerto Rico last weekend. Not since 
Hurricane Katrina have I seen devastation of this magnitude in the 
United States. People are without food and water. Critical 
infrastructure has been destroyed. The power is still out on most of 
the island and generators are failing at medical centers.
    Lives are at stake. It is critical that President Trump and 
Republican House Leadership stop posturing and give Puerto Rico and the 
U.S. Virgin Islands focused, swift, and determined attention today and 
in the difficult days ahead.
    Today, the House will begin consideration of a woefully inadequate 
disaster supplemental that fails to include funding for electric grid 
repair and modernization, community development block grants, and 
Social Service Block Grants, among other things. We can and must do 
better for our fellow Americans.
    Turning to the subject of today's hearing, as I mentioned, this 
hurricane season has tested our emergency communications capabilities. 
I will be interested in the witnesses' perspectives about how well our 
emergency communications infrastructure performed, how Federal 
resources supported emergency communications, and whether there are 
unique communications challenges in non-contiguous territories like 
Puerto Rico and the U.S. Virgin Islands.
    We cannot afford to have our emergency communications systems fail 
when disasters strike. We must incorporate the lessons learned from 
these most recent disasters into future emergency communications plans.
    Looking to the future, I am encouraged to hear of the progress 
FirstNet is making as it continues its efforts to build out the public 
safety broadband network. As a former volunteer firefighter in rural 
area, I hope that access to the network will be affordable, secure, and 
ubiquitous.
    I am hopeful that FirstNet will finally help us succeed in closing 
our interoperable emergency communications gap--but that can only 
happen if the those who need to access the network can afford it and if 
it is available everywhere, even in rural areas.

    Mr. Donovan. We are pleased to have a distinguished panel 
before us today on this important topic. Admiral Ronald Hewitt 
served as the director of the Department of Homeland Security's 
Office of Emergency Communications, a position which he has 
held since November 2012. Prior to joining OEC, Admiral Hewitt 
served as the United States Coast Guard's assistant commandant 
for human resources and the assistant commandant for command, 
control, communications, computers, and information technology, 
which is the Coast Guard's chief information officer. Having a 
great Coast Guard presence on Staten Island, Admiral, we love 
our Coasties. Thank you.
    Mr. Ed Parkinson serves as the director of government 
affairs for the First Responder Network Authority FirstNet, and 
is responsible for intergovernmental relations with local, 
State, and Federal organizations. Prior to joining FirstNet, 
Mr. Parkinson served for 5 years as a professional staff member 
for the House Homeland Security Committee, with his primary 
area of responsibility in the field of first responder 
communications. Ed, welcome back.
    Mr. Mark Goldstein serves as a director of physical 
infrastructure issues at the Government Accountability Office, 
where he is responsible for GAO's work in the areas of 
Government property and telecommunications. Prior to joining 
GAO, Mr. Goldstein held positions with the District of Columbia 
Financial Control Board, the Internal Revenue Service, and the 
Senate Committee on Homeland Security and Governmental Affairs. 
Welcome, Mr. Goldstein.
    The witnesses' full written statements will appear in the 
record, and now the Chair recognizes Admiral Hewitt for 5 
minutes.

STATEMENT OF REAR ADMIRAL RONALD HEWITT (USCG, RET.), DIRECTOR, 
OFFICE OF EMERGENCY COMMUNICATIONS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Admiral Hewitt. Thank you, Chairman Donovan, Ranking Member 
Payne, and distinguished Members of the subcommittee. It is a 
pleasure for me to be here today to provide you an overview of 
what the Office of Emergency Communications has done since our 
creation 10 years ago and, more specifically, within the last 3 
years since our previous hearing to improve emergency 
communications interoperability Nation-wide.
    Public safety communications is going through unprecedented 
change with the deployment of FirstNet's Nation-wide public 
safety broadband network, next generation 9-1-1, cellular alert 
and warning systems. To ensure all these systems work 
seamlessly together, we promulgated the 2014 National Emergency 
Communications Plan, which is the roadmap to ensuring 
interoperability.
    The plan was developed by SAFECOM, a group comprised of 
public safety leaders, representing the Nation's first 
responder community, and Government leaders who support public 
safety. To implement the goals and objectives of the 2014 plan, 
we assist States and territories with developing and 
implementing their State-wide communications interoperability 
plans, which are aligned to the National plan. It is essential 
that State and territory plans cover all public safety 
communications systems to ensure information seamlessly flows 
between them.
    But there have been obstacles in doing so. The majority of 
the State-wide interoperability coordinators, which we refer to 
as SWICs, are responsible for just land mobile radio, and it 
has been difficult for them to develop governance structures 
that include State officials who are responsible for the other 
public safety communication systems. Additionally, we are 
seeing many SWICs being assigned multiple roles.
    To address these issues, we partnered with the National 
Governors Association, NGA, to conduct a policy academy last 
year on improving emergency communications' interoperability in 
five States. Recommendations from the policy academy included: 
Empower SWIC to ensure close coordination with FirstNet point 
of contact and 9-1-1 administrator; reinvigorate an active 
governance body; revitalize the State-wide communications 
interoperability plan; and engage State legislators to promote 
understanding and support of the plan.
    We will continue to work with NGA to help address the 
policy academy recommendations. We are also working with 
SAFECOM to upgrade the communications unit within the incident 
command system, which is the common way all responders organize 
and operate during an event or disaster.
    Currently communications unit is responsible for radio 
interoperability. But we are updating it to include cellular, 
which will support FirstNet capabilities. To date, we have 
trained over 7,000 communications leaders across the country. 
Once we update the program to include broadband systems, we 
will provide refresher training that includes the new material.
    Broadband not only provides new capabilities, such as text, 
data, and pictures, but also new risks, such as cybersecurity. 
The communications unit of the future will mitigate these risks 
while achieving the benefits of multimedia information to 
assist public safety with saving lives and preserving property.
    Today's citizens cannot send a picture to their 9-1-1 
center of their lost child or loved one, nor can it be sent out 
to public safety or citizens to help search for that person, 
but with OEC's efforts to drive interoperability across to all 
public safety communication systems, which include land mobile 
radio, next generation 9-1-1, FirstNet's Nation-wide public 
safety broadband network, and next generation alert and warning 
systems, this capability will be available to citizens across 
the Nation as these systems are deployed.
    This is just one of many examples that illustrate the value 
of interoperable multimedia communications for public safety 
and citizens. By achieving the goals and objectives of the 
National emergency communications plan, these life-saving 
benefits will become a reality.
    This subcommittee and committee have been excellent 
partners in this effort, and I look forward to continuing the 
conversation with you about how best to carry out our National 
effort. Once again, thank you, Chairman Donovan, Ranking Member 
Payne, and distinguished Members of this committee for allowing 
me to testify here today.
    [The prepared statement of Admiral Hewitt follows:]-
     Prepared Statement of Rear Admiral Ronald Hewitt, USCG (Ret.)
                            October 12, 2017
    Thank you, Chairman Donovan, Ranking Member Payne, and esteemed 
Members of the subcommittee. It is a pleasure to be here once again to 
discuss the Department of Homeland Security's (DHS) efforts in 
enhancing the Nation's interoperable emergency communications. Before 
my last appearance in front of this subcommittee, the Department had 
just released the 2014 National Emergency Communications Plan, which 
identified the unprecedented change public safety communications will 
be going through with the deployment of the First Responder Network 
Authority (FirstNet) Nation-wide Public Safety Broadband Network 
(NPSBN), Next Generation 9-1-1 (NG9-1-1), and cellular alerts and 
warnings systems. The Office of Emergency Communications (OEC) is 
working with public safety to implement the goals and objectives in the 
2014 Plan to ensure these disparate systems work together seamlessly.
    Since our formation a decade ago, OEC has partnered with public 
safety to develop standards and best practices to achieve interoperable 
communications. In 2008, Land Mobile Radio (LMR) was the main system 
used by public safety. But soon, just as the average citizen relies on 
cellular broadband, public safety officials will be able to receive 
multimedia data with FirstNet capabilities. As a result, OEC has 
expanded our programs to achieve interoperability in a Land Mobile 
Radio and cellular broadband environment. OEC continues to strategize 
how best to ensure that plans and investments keep pace with this ever-
changing telecommunications environment. Recent events have shown that 
the Nation must continue to improve these capabilities, making sure 
that first responders are ready to get the information that they need 
to help citizens during a disaster. With citizen-to-citizen 
communications drastically changing from voice only to texting and 
other multimedia means, these communications capabilities will 
revolutionize how citizens engage with public safety and how first 
responders communicate with one another. However, as I said when I was 
last before you, emergency communications is largely a people issue. 
Technology will continue to evolve over time and so our job is to 
support the effective use of this technology through governance, 
standard operating procedures, and joint exercises and training. This 
is the critical work that will ensure interoperability when it is 
needed most--at the next incident or event.
            update on the office of emergency communications
    OEC was established in 2007 as part of the Congressional response 
to the communications challenges experienced during Hurricane Katrina 
in 2005 and, before that, the terrorist attacks of September 11, 2001. 
Our mandate directs OEC to carry out a range of activities to support 
policy officials and first responders at all levels of government--
Federal, State, local, territorial, and Tribal--as they work to 
achieve, maintain, and enhance operable and interoperable emergency 
communications capabilities.
Working at the National Level
    OEC is the primary driver of strategic planning and coordination to 
improve emergency communications interoperability Nation-wide. Through 
a stakeholder-driven process, OEC authors the National Emergency 
Communications Plan (NECP), which provides strategic guidance for the 
public safety community and Federal agencies to improve emergency 
communications capabilities. Since the release of the 2014 Plan, OEC 
has partnered with public safety officials across the Nation, and at 
all levels of government, to increase capabilities and address 
communications interoperability gaps. We put people at the center of 
all of our work because interoperability can only be achieved when 
those responsible for emergency and incident communications engage in 
proper planning, governance, training, and usage initiatives.
    OEC is the executive agent of SAFECOM, a public safety advisory 
board which aims to improve multi-jurisdictional and intergovernmental 
communications interoperability. The group works with DHS and key 
emergency response stakeholders across all levels of government and all 
public safety disciplines to address the need to improve existing 
communications systems and coordination while developing future tools. 
SAFECOM is comprised of representatives from associations, such as the 
International Chiefs of Police, the International Association of Fire 
Chiefs, the National Association of State 9-1-1 Administrators, the 
International Association of Emergency Managers, the National 
Association of State Chief Information Officers, and the Major County 
Sheriffs' Association, to name a few. SAFECOM develops numerous best 
practices and guidance documents every year to support its members' 
goals and provides input into OEC's programs, products, and services.
    OEC also manages the Communications Unit (COMU) program, which 
outlines the functions, positions, training, and certification required 
to support interoperable incident communications. The current COMU 
program only addresses LMR interoperability. In 2017, and continuing 
through 2018, SAFECOM, in partnership with the National Council of 
State-wide Interoperability Coordinators, created a working group to 
update the COMU program to include broadband and data into incident 
communications. The working group, comprised of communications experts 
from across the Nation, is identifying the COMU functions required to 
support data and broadband use, developing COMU positions required to 
address those functions, creating training curriculum for the new 
positions, and supporting States and territories in establishing COMU 
certification programs.
    OEC continues to support State and local public safety in their 
planning efforts, working with SAFECOM to develop two documents related 
to governance planning and implementation. The first is the SAFECOM 
Guidance on Emergency Communications Grants. This annual document 
provides recommendations to grantees seeking funding for interoperable 
emergency communications projects, including allowable costs, items to 
consider when funding projects, grants management best practices, and 
information on standards that ensure greater interoperability.
    The second document developed with SAFECOM is the Emergency 
Communications Governance Guide for State, Local, Tribal, and 
Territorial Officials, released in 2015. This tool lays out governance 
challenges, best practices, and recommendations on how to establish and 
maintain effective State-wide Interoperability Governing Bodies (SIGBs) 
that represent all emergency communications capabilities. This 
Nationally-developed resource includes a range of broad approaches, 
allowing officials to select and apply recommendations at the State, 
local, Tribal, or territorial level that are most appropriate for their 
specific situation or challenge.
    Additionally, OEC is leading the development of the Next Generation 
Network Priority Services, which will enable National Security and 
Emergency Preparedness (NS/EP) users to have priority voice, data, and 
video communications in commercial networks.
Working at the State and Territorial Level
    Many have heard me talk about the importance of governance, and we 
continue to see this as an area that we all must pay particular 
attention to as we move into the future of emergency communications. 
Anyone that has worked in public safety will tell you that having the 
greatest technology available cannot, on its own, provide interoperable 
emergency communications. People and processes must be a major 
consideration to fully achieve interoperability. OEC has recognized a 
steady decrease in full-time State-wide Interoperability Coordinators 
(SWICs)--from years ago, when many States and territories had a full-
time SWIC; to now, where there are just 12. We have also seen a decline 
in the activeness of SIGBs, which serve as the primary steering groups 
for State-wide interoperability. Many SIGBs are meeting less frequently 
or, in some cases, have disbanded all together making interoperability 
more difficult to achieve. We have heard from many of our partners that 
this is due to a lack of funding available to emergency communications. 
This is something that we all must pay more attention to and work 
together to find ways to help States increase their emergency 
communications governance capabilities. To address these gaps, OEC 
works with all 56 States and territories to establish and improve their 
SIGB, support their SWIC, and update their State-wide Communication 
Interoperability Plan (SCIP) through direct technical assistance.
    Additionally, in 2016, OEC partnered with the National Governors 
Association (NGA) Center for Best Practices to launch a policy academy 
to identify challenges and potential solutions toward further enhancing 
governance structures, planning for new technologies and securing 
sustainable funding. Five States participated in the policy academy--
Alaska, Hawaii, Illinois, Utah, and West Virginia. Findings from the 
NGA Policy Academy are critical to our efforts to help States look at 
their emergency communications systems together to pass information 
seamlessly. Right now, funding and staffing for a new system is 
sometimes done without considering the systems related to the proposed 
new tool. States must approach these systems' funding and staffing in 
an integrated way to better allocate resources.
    One result that has come out of this project is OEC's development 
of the Enhanced SCIP Pilot, which launched earlier this year. The new 
plans that are being developed during this project will provide a more 
intensive review of governance, technology, and funding sustainment. 
OEC is currently working with nine States to deliver the Enhanced SCIP 
Pilot and will evaluate the results to inform strategic planning 
support in fiscal year 2018.
Working at the Local Level
    In addition to engaging our partners through stakeholder groups, we 
also work directly with public safety officials to further the Nation's 
interoperable emergency communications. Through technical assistance 
offerings, provided at no cost, we assist public safety with the 
planning, governance, operational, and technical aspects of developing 
and implementing interoperable communications initiatives. To date, OEC 
has provided more than 1,500 technical assistance visits. In response 
to changing technology and stakeholder feedback, OEC has expanded 
technical assistance offerings to cover broadband and cybersecurity 
initiatives.
    OEC also works with public safety to identify capability gaps at 
the local level. One such example is the Interoperable Communications 
Capabilities Analysis Program (ICCAP). ICCAP is designed to help State, 
local, and Federal agencies enhance their overall capacity to 
communicate with one another, using both voice and data, focusing on 
interoperability across the public safety communications ecosystem and 
preparing for the unexpected emergency or incident during a planned 
event. OEC has conducted 16 ICCAP events over the past year. For each 
event, OEC has developed After-Action Reports for the organizing 
agencies to understand strengths and areas of improvement. OEC is 
currently analyzing the capability data across all observations to 
identify the changes in incident communications which will inform 
future technical assistance offerings and products.
    Also at the local level, OEC provides priority telecommunications 
and restoration services to ensure that the NS/EP community can 
communicate under all circumstances. The priority services portfolio 
includes Government Emergency Telecommunications Service (GETS) to 
connect calls during landline congestion, Wireless Priority Service 
(WPS) to connect calls during wireless network congestion, and 
Telecommunications Service Priority (TSP) providing priority treatment 
for vital voice and data circuits or other telecommunications services.
Working at the Federal Level
    On the Federal side, OEC manages the Emergency Communications 
Preparedness Center (ECPC), a group of 14 Federal agencies with a 
significant role in emergency communications. Its members represent the 
Federal Government's broad role in emergency communications, including 
regulation, policy, operations, grants, and technical assistance. 
Together, SAFECOM and the ECPC coordinate activities, such as grant 
funding guidance, 9-1-1 initiatives, and emergency communications 
strategic planning. The ECPC Grant Focus Group Chair is a FirstNet 
staff member, ensuring that the annual grant guidance supports efforts 
to integrate LMR and broadband.
    We are seeing remarkable coordination between Federal and State 
public safety as they begin to allow each other to operate on existing 
communications systems. OEC currently supports efforts to develop 
Memorandums of Understanding between the Federal Government and States 
to allow non-Federal agencies to access the Federal Enforcement and 
Incident Response Interoperability Channels. We are also supporting 
similar coordination where Federal agencies are granted access to 
State-wide systems. This cooperation leads to improved coordination 
between Federal and State officials and an enhanced ability to manage 
incidents.
OEC Coordinators
    OEC employs subject-matter experts located across the country to 
engage State, local, Tribal, and territorial officials as they address 
the complex issues facing the emergency communications ecosystem. These 
OEC Coordinators have extensive experience in public safety, many 
previously serving as first responders. Leveraging their real-world 
experiences, they are able to build trusted relationships, enhance 
collaboration, stimulate comprehensive planning, and encourage the 
sharing of best practices and information between public safety 
organizations, appointed and elected officials, critical infrastructure 
owners and operators, and key non-government organizations. 
Coordinators provide event support and coordination, conduct training 
and technical assistance, coordinate and participate in capability 
assessments, advise on and support State-wide governance activities, 
and provide a link to additional Federal resources.
OEC Response to Hurricanes Harvey, Irma, & Maria
    When I last appeared before this subcommittee, I explained about 
OEC's assistance to Boston to assess and improve its emergency 
communications capabilities and how that enabled the city's response 
when two improvised explosive devices detonated near the Boston 
Marathon's finish line in 2013. Recent events have shown the continued 
importance of emergency communications to support public safety as they 
prepare for and respond to a major event. During Hurricanes Harvey and 
Irma, we saw wireless communications degraded in the affected areas due 
to damaged infrastructure. While few public safety answering points 
(PSAP) went down, some had to be rerouted for various reasons. OEC 
supported public safety at all levels as they responded to these 
storms, providing on-the-ground support, as well as assistance from the 
National Capital Region. During an event, the National Coordinating 
Center for Communications (NCC), part of the National Cybersecurity and 
Communications Integration Center, leads emergency communications 
response and recovery efforts under Emergency Support Function No. 2 of 
the National Response Framework. As part of DHS's response to 
Hurricanes Harvey, Irma, and Maria, 14 members of the OEC team 
supplemented the efforts of the NCC, providing emergency communications 
assistance, including emergency operations center staffing, priority 
communications support, and regional communications knowledge at the 
Federal, State, and local levels.
    The extensive damage from Hurricane Maria shows the importance of 
rapid restoration of communications to enable information collection, 
dissemination, and coordination in response to the incident. The 
rebuilding of the communications infrastructure is taking a coordinated 
effort between the Government and commercial carriers.
    OEC's Priority Services programs remained fully functional 
throughout the storms where communications infrastructure was still 
working. GETS and WPS provide essential personnel priority access and 
prioritized processing, greatly increasing the probability of call 
completion. GETS focuses on the local and long distance segments of the 
landline networks, while WPS targets all Nation-wide cellular networks. 
OEC also manages TSP, which provides service vendors a Federal 
Communications Commission (FCC) mandate to prioritize requests by 
identifying those services critical to National security and emergency 
preparedness. A TSP assignment ensures that it will receive priority 
attention by the service vendor before any non-TSP service. These 
services processed thousands of calls from first responders and 
Government officials as they worked to respond to the aftermath of the 
recent storms.
   supporting interoperable emergency communications into the future
    Not long ago, the emergency communications ecosystem consisted of a 
citizen calling a PSAP for help, a call operator radioing the 
information to fire or police, and public safety officials and 
responders speaking to each other on LMR. However, new technologies are 
drastically changing the emergency communications ecosystem, not only 
transforming how citizens talk to each other, but also how public 
safety works together and engages with citizens. We cannot ignore the 
transition to these new communications technologies and the advantages 
they bring. However, we must ensure we continue to support our partners 
through training, technical assistance, and best practices as long as 
LMR remains a communications tool for public safety.
Integrating LMR and Broadband Communications
    Although LMR remains essential in emergency communications, the 
benefits and opportunities broadband offers to public safety are 
undeniable. Citizens will be able to send a picture of a suspicious 
package or videos of an event as it is happening to PSAPs that can then 
share those files with first responders. This capability provides 
critical information in determining how to respond and what resources 
will be needed. It is hard to speak of these advancements without also 
mentioning the progress toward implementing the newest tool in the 
emergency communications toolbox--the NPSBN. FirstNet, an independent 
authority within the Department of Commerce's National 
Telecommunications and Information Administration, recently awarded its 
contract to build the broadband network and we at the DHS Office of 
Emergency Communications applaud them in doing so. Until broadband can 
support mission-critical voice to public safety, LMR will continue to 
be the primary method of communication for the near future. However, 
this is clearly a major step toward full implementation of a capability 
that will greatly improve interoperable communications across the 
country.
    From the early days of envisioning this new network, OEC has 
supported both the FirstNet team and State and local public safety as 
they prepare for full implementation of the system. OEC provided 
support in developing the FirstNet Request for Proposal, as well as 
assistance with identity, credentialing, and access management 
responsibilities. The ECPC was designated by FirstNet to coordinate the 
needs for Federal users of the network, collecting network requirements 
and security standards from all departments and agencies. In response 
to feedback from our State and local partners, we have recently added 
technical assistance offerings specifically focused on assisting with 
preparation and planning for deployment of broadband, including 
FirstNet. These offerings focus on broadband education, governance, 
planning, engineering, and data collection. OEC also worked with 
FirstNet to develop Roadmap to 2020, which outlines key considerations 
and resources impacting the emergency communications grants community 
and enables coordination across Federal agencies to understand how 
grant programs can support the deployment of broadband systems. In 
September, I assumed the DHS FirstNet board member duties and look 
forward to continuing to support the implementation of the NPSBN in 
this new capacity.
Cybersecurity
    As communications move toward broadband networks like FirstNet, 
there are new issues and risks that must be considered--not least of 
them, cybersecurity. Many of the concerns that the Full Committee has 
studied in hearings and briefings related to cybersecurity are the same 
issues that must be considered during this transition. Emergency 
communications networks are only as secure as its weakest connection; 
vulnerabilities at any point have the potential to affect the entire 
network. In addition to our technical assistance offerings related to 
cybersecurity, OEC assists our stakeholders through various programs 
and activities. Through the Cyber and Physical Threat and Risk Analysis 
to Improve Networks (CAPTAIN) program, DHS collaborates with public and 
private emergency communications stakeholders to increase understanding 
and awareness about critical cyber and physical risks that could 
threaten the mission of first responders and public safety agencies. 
And last year, OEC, in coordination with the Department of 
Transportation's 9-1-1 Office, developed the NG9-1-1 Cybersecurity 
Primer, which helps PSAP operators improve the cybersecurity posture of 
relevant systems Nation-wide and provides an overview of the cyber 
risks that will be faced by NG9-1-1 systems. The Primer serves as an 
informational tool for system administrators to better understand the 
full scope and range of potential risks, as well as recommend 
mitigations to these risks. Finally, OEC supported the FCC's Task Force 
on Optimal Public Safety Answering Point Architecture, a comprehensive 
study of the future of PSAPs, the integration of NG9-1-1, the 
cybersecurity risks and proposed solutions to address the risks.
Grants
    The Department has provided multiple grants to public safety to 
enhance their emergency communications capabilities. Starting in fiscal 
year 2007, the Department provided two emergency communications-related 
grants to States and territories, the first of which was the Public 
Safety Interoperable Communications (PSIC) Grant Program. PSIC was a 
one-time grant program of the Department of Commerce's National 
Telecommunications and Information Administration (NTIA), which 
provided a total of $1 billion, with each State and territory receiving 
funds to support the development of State-wide, regional, and local 
systems. FEMA administered the grant program on behalf of NTIA. About 
90 percent of the funds were spent on equipment. Also, from fiscal year 
2008--fiscal year 2010, FEMA and OEC partnered to administer the 
Interoperable Emergency Communications Grant Program (IECGP). Over 
these 3 years, IECGP provided more than $145 million to public safety 
to improve their governance, planning, training, exercise, and 
equipment. This included updating a State's SCIP and funding their SWIC 
and SIGB. These programs helped States lay a great foundation for their 
emergency communication capabilities. Emergency communication equipment 
costs are allowable expenses under FEMA's Homeland Security Grant 
Program.
    The OEC-administered Border Interoperability Demonstration Project 
(BIDP) just recently released its closeout report. BIDP was a $25.5 
million one-time, competitive program to provide funding and technical 
assistance to U.S. communities along the Canadian and Mexican borders. 
OEC recently published its closeout report and is in the process of 
developing tools, templates, and studies based off of the best 
practices, lessons learned, and processes successfully demonstrated by 
BIDP award recipients. Additionally, last year, OEC established the 
Rural Emergency Medical Communications Demonstration Project (REMCDP), 
a one-time $2 million project to work with a public and State-
controlled institution of higher education to examine communications 
barriers and identify solutions that enhance existing emergency 
communications infrastructure. Through a competitive process, OEC 
awarded the funds to the University of Mississippi Medical Center to 
support the First Hands Project, which will test an innovative approach 
to communications governance, planning, coordination, training, and 
exercises. We are in the middle of the period of performance and are 
already seeing significant accomplishments in meeting the program's 
objectives. We look forward to briefing you on what we learn at the end 
of the REMCDP.
SAFECOM Nation-wide Survey
    The SAFECOM Nation-wide Survey (SNS) will be a Nation-wide data 
collection effort to obtain actionable and critical data that drives 
our Nation's emergency communication policies, programs, and funding. 
OEC and SAFECOM will distribute the survey to Federal, State, local, 
territorial, and Tribal emergency response provider organizations with: 
(a) A public safety-related mission and (b) Users of public safety 
communications technology. Questions will be organized by the five 
critical success elements of the SAFECOM Interoperability Continuum--
Governance, Standard Operating Procedures, Technology, Training & 
Exercises, and Usage--with the addition of a security element, which 
will touch on cybersecurity. Results of the survey will help Government 
officials and emergency responders better understand emergency 
communications needs so that they can make data-driven funding, policy, 
and programmatic decisions to strengthen capabilities. We look forward 
to receiving and analyzing SNS survey results, which will be published 
in the upcoming Nation-wide Communications Baseline Assessment.
The Next National Emergency Communication Plan
    OEC is in the early planning phase for the next update of the 
National Emergency Communications Plan. Later this year, we will begin 
working with our public safety partners to solicit their critical 
feedback and participation in Plan development. The most important 
inputs to this document, as was true with the 2014 NECP, will be from 
the public safety practitioners in the field who are charged with 
protecting and saving lives. The next NECP will further expand on the 
communications ecosystem concept developed in 2014 and will be informed 
by more current efforts including the previously-mentioned NGA Policy 
Academy, the ICCAP analysis, and results from the SNS.
                               conclusion
    Thank you, Chairman Donovan, Ranking Member Payne, and the Members 
of this subcommittee. Ten years ago, Congress set up the Office of 
Emergency Communications to support our stakeholders as they coordinate 
activities and share information to improve their interoperable 
emergency communications capabilities. We have seen tremendous changes 
since then, and, as emergency communications evolves, we stand ready to 
continue our strong coordination efforts with public safety ensuring 
they are well prepared for the future, leveraging the various tools 
available--NG9-1-1, broadband, and LMR. I look forward to our 
discussion this morning, and I am pleased to answer any questions that 
you may have.

    Mr. Donovan. Thank you, Admiral, and thank you for your 
service to our Nation.
    The Chair now recognizes Mr. Parkinson for 5 minutes.

 STATEMENT OF EDWARD PARKINSON, DIRECTOR, GOVERNMENT AFFAIRS, 
               FIRST RESPONDER NETWORK AUTHORITY

    Mr. Parkinson. Thank you, Mr. Chairman.
    Mr. Donovan, Ranking Member Payne, Mr. Langevin, it is a 
pleasure to be here, and thank you for inviting me to testify 
before the committee today. My name is Edward Parkinson. I am 
the director of government affairs for FirstNet. As you 
referenced, in my previous life I was sitting behind the 
esteemed Members. So it is a bit different for me to be sitting 
on this side of the dais here today, but I am looking forward 
to the hearing.
    FirstNet last testified before this subcommittee in 
November 2014, and we have made an enormous amount of progress 
since then. Over the past 3 years, FirstNet has developed a 
clear path forward to the successful deployment of the National 
Public Safety Broadband Network: Having consulted with all 56 
States and territories and the District of Columbia, met with 
many Tribal nations, successfully completed an open, 
transparent, and competitive procurement, selected a public-
private partner in the shape of AT&T, delivered State plans, 
and began the opt-in process.
    While an enormous amount of work has gone into the past few 
years, we have much to yet accomplish. So the men and women at 
FirstNet remain dedicated to delivering the network for our 
Nation's first responders as quickly as possible.
    As the recent storms have brought devastation to Texas, 
Florida, and Puerto Rico, and the inconceivable tragedy that 
took place in Las Vegas, all show us communication is now 
considered by all of us, and not just public safety, as much as 
a necessity as power or other utilities. What was known prior 
to 9/11 and what is abundantly clear today is that we need to 
get the best possible tools into the hands of the men and women 
who protect us and keep us safe.
    The FirstNet network must be able to withstand natural and 
man-made disasters, so that when a law enforcement officer is 
running into harm's way or when a firefighter is running into a 
fire, they can trust the technology that we have put in their 
hands.
    One of the reasons why our procurement process was so 
thorough was that because we were not only looking for the best 
deal from a fiscal point of view, but we were looking for that 
partner who understood the extremely high bar that we were 
setting and who was willing to step up for public safety. AT&T 
was that partner.
    We are very encouraged by the early work that we have 
achieved in these first stages of the partnership with AT&T, 
and given the length of the contract and the commitment that 
they are making toward serving public safety, I can confidently 
say that this is a partnership with an aligned goal--providing 
the best service possible to public safety.
    I would also like to acknowledge our partners in the 
States. Both our past consultation and our on-going outreach 
efforts that we are planning in the future are indications of 
our commitment to deepening our partnership so that we can 
continue to interact with local public safety users who will 
ultimately be the end-users of the network.
    FirstNet will allow for public safety to take advantage of 
the evolving nature of communications. First responder 
communication needs are more technical and critical day-by-day 
as we move further into our highly connected internet-of-things 
world.
    That is why FirstNet and AT&T will continue to evolve the 
network hand-in-hand with public safety and with our partners 
in the States to ensure that it meets their needs today, 
tomorrow, and for the next 25 years.
    While there has been much success, we still have work to 
do. As Mr. Goldstein will reference in his testimony, there are 
areas where FirstNet has already improved, but areas where we 
still have to strive for more, to do a better job. So FirstNet 
is dedicated to continuing to reach the highest levels of 
excellence in every area.
    Tribal consultation is also a key part of our planning. As 
part of FirstNet's commitment to engaging with the 567 
Federally-recognized Tribes, FirstNet has adopted a Tribal 
consultation policy to ensure that Tribal emergency responders 
are able to access the benefits of this Nation-wide system once 
we have opt-in from the Governors.
    Ultimately, the most important action that FirstNet must 
take is to continue to work every day with the first responders 
and always listen to public safety. After all, this is their 
network.
    We are dedicated to delivering what Congress has challenged 
us to achieve, the delivery of a Nation-wide public safety 
broadband network, something that has never been done before, 
specific to public safety. It is fair to say that the hard 
things are hard, but we are up for the challenge, and so that I 
ask all you here today that going forward to judge us by our 
record.
    So far, I can speak for all of us at FirstNet when I say we 
are proud of what we have achieved, but we also know that we 
have much to go. Thank you again for your support, and I look 
forward to answering any questions you might have.
    [The prepared statement of Mr. Parkinson follows:]
                 Prepared Statement of Edward Parkinson
                            October 12, 2017
                              introduction
    Chairman Donovan, Ranking Member Payne, and all Members of the 
subcommittee, I would like to thank you for the opportunity to appear 
here today to provide an update on the progress we are making at 
FirstNet toward the deployment of an interoperable, Nation-wide public 
safety broadband network (NPSBN or Network).
                       progress toward a network
    FirstNet intends to provide a cutting-edge wireless broadband 
communications system, with priority and pre-emption, to millions of 
first responders at the local, State, Tribal, and Federal levels across 
all States, territories, and the District of Columbia, consistent with 
the vision laid out in the Middle Class Tax Relief and Job Creation Act 
of 2012 (Pub. L. 112-96) (Act). By enabling the Network's deployment, 
FirstNet will provide a dedicated, ubiquitous solution that helps solve 
public safety's decades-long interoperability and communications 
challenges, which includes advanced communications services, devices, 
and applications to help first responders and other public safety 
personnel make communities safer.
    FirstNet's goal of deploying the network, and thereby meeting the 
needs of first responders, is a matter of critical importance for 
public safety, and today we are closer than ever before to 
accomplishing this goal. Since its inception, FirstNet has taken the 
necessary steps to build an organization, execute a vigorous 
consultation and outreach strategy, develop and release a comprehensive 
request for proposals (RFP), select an experienced and proven wireless 
industry leader for a first-of-its-kind public-private partnership, and 
lay the groundwork for a successful deployment of the NPSBN. Much has 
been accomplished.
    However, as it is with any unprecedented undertaking, every step 
forward presents new challenges and requires identification of 
innovative solutions. The past 3 years have involved hundreds of 
thousands of working hours to solve the various challenges FirstNet has 
faced. I am proud to say that today we have an organization of people 
who have approached these challenges head on and advanced the mission 
with a clear and unwavering dedication to public safety. The 
organization is dedicated to fulfilling FirstNet's responsibilities to 
the public safety community; creating a culture of hard work, openness, 
and transparency; developing a successful public-private partnership; 
and continuing to educate, inform, and obtain input from FirstNet's 
partners in the States and public safety stakeholders.
                         the selection of at&t
    At a signing ceremony on March 30, 2017, Secretary of Commerce 
Wilbur Ross announced FirstNet's award of the Nation-wide NPSBN 
contract to AT&T. The attendees included AT&T CEO Randall Stephenson, 
Federal Communications Commission (FCC) Chairman Ajit Pai, Members of 
Congress and staff, FirstNet Board members, FirstNet leadership, and, 
most importantly, public safety representatives.
    Prior to the ceremony, the FirstNet Board voted unanimously to 
authorize the award. With the Board's authorization, FirstNet and the 
Department of the Interior, which assisted FirstNet with the Network 
procurement, made the 25-year award to AT&T based on the determination 
that AT&T's proposal presented the overall best value solution for 
FirstNet and public safety.\1\
---------------------------------------------------------------------------
    \1\ We were able to move forward with an award to AT&T after a 
March 17, 2017, decision by the U.S. Court of Federal Claims to deny a 
protest filed by one of the unsuccessful bidders.
---------------------------------------------------------------------------
              the benefits of a public-private partnership
    Before listing the details of the solution FirstNet and AT&T are 
delivering to public safety, it is important to understand the benefits 
of the public-private partnership. By leveraging private-sector 
resources, infrastructure, and cost-saving synergies to deploy, 
operate, and maintain the Network, as directed by the Act, the NPSBN 
can be deployed quickly, efficiently, and far more cost-effectively 
than any other model.
    Congress foresaw the benefits such a partnership could offer and 
gave FirstNet the tools necessary to engage the private sector, thereby 
allowing the private sector to do what it does best--i.e., leverage the 
market to determine the best deal at the best price, while ensuring 
that a dedicated, interoperable Network is built to public safety's 
requirements. The fact remains that neither party--FirstNet nor AT&T--
on its own could build a network like the FirstNet Network. It would be 
too expensive and too burdensome. A public-private partnership 
ultimately will provide a Network that benefits public safety in a 
manner that would have been impracticable to achieve if left solely to 
the private sector or Federal Government.
    FirstNet is confident that the Network will also provide many 
specialized features. In addition to priority, preemption, and robust 
rural coverage, public safety will have access to FirstNet-dedicated 
deployable equipment for use during disasters and pre-planned events, 
as well as in-building solutions--because FirstNet recognizes that 
first responders' communications do not stop at the curb.
    The solution also includes a customer service center dedicated 
specifically to public safety--available 24/7, 365 days a year; a 
dedicated FirstNet core with built-in redundancy to provide end-to-end 
cybersecurity; and an entire eco-system of devices, apps, and tools for 
public safety, including a FirstNet app store. Each of these features 
will be a first for public safety as they are not currently available 
on any network today.
                how the network will help public safety
    The ability to communicate seamlessly across jurisdictions is 
critical for law enforcement, fire, and emergency medical services 
(EMS) when securing large events or responding to emergencies and 
disasters. In those instances, networks can become overloaded and 
inaccessible, limiting responders' use of vital communication 
technologies, such as smartphones and applications dedicated to public 
safety services.
    By providing unfettered, uninterrupted access to wireless spectrum, 
the NPSBN will help improve response times and situational awareness 
for public safety from coast-to-coast, every State, territory, and 
across Tribal and Federal land, in both rural and urban areas, leading 
to safer and more secure communities, and first responder safety.
    The market certainty the Network will provide through a long-term 
commitment, scale, and capacity will enable private-sector investment 
and innovation for advanced life-saving technologies, tools, and 
services, such as:
  <bullet> Applications that allow first responders to reliably share 
        videos, text messages, photos, and other information during 
        incidents in near-real time;
  <bullet> Advanced capabilities, like camera-equipped connected drones 
        and robots, to deliver images of wildfires, floods, or other 
        events;
  <bullet> Improved location services to help with mapping capabilities 
        during rescue and recovery operations; and
  <bullet> Wearables that could relay biometric data of a patient to 
        the hospital or alert when a fire fighter is in distress.
    Network technology will also be tested and validated through the 
FirstNet Innovation and Test Lab, located in Boulder, Colorado, to 
ensure first responders have the public safety grade, proven tools they 
need and can trust during disasters and emergencies.
                              state plans
    On June 19, FirstNet and AT&T delivered initial State Plans to the 
States and territories for review and comment 3 months ahead of 
schedule.\2\ This marked a major milestone in the deployment of 
FirstNet.
---------------------------------------------------------------------------
    \2\ The initial State plans for three territories (Guam, Northern 
Mariana Islands, and American Samoa) were delayed. These plans have now 
been uploaded to their respective portals, and FirstNet will be 
scheduling webinars shortly with these territories to introduce 
stakeholders to the content.
---------------------------------------------------------------------------
    Since 2013, FirstNet has worked hand-in-hand with the States, 
territories, localities, Federal authorities, Tribes, and the public 
safety community to make sure the Network is specifically built for 
their needs. FirstNet's consultation efforts included more than 140,000 
engagements with public safety stakeholders Nation-wide, and the 
collection of data from States and territories that accounted for more 
than 12,000 public safety agencies representing more than 2 million 
public safety personnel.
    Developed with this input, the customized State Plans outline the 
coverage, features, and mission-critical capabilities FirstNet and AT&T 
will bring to first responders and other public safety personnel. 
States have had the opportunity to identify priorities and concerns 
related to Network coverage (including in rural areas) and services. 
Consistent with the Act, FirstNet has also encouraged State-designated 
single points of contact (SPOCs) to include Tribal stakeholders in 
FirstNet engagements and solicit feedback and collect data from the 
Tribes in their States to ensure those priorities and concerns were 
incorporated in the State Plans. Based on this feedback, FirstNet and 
AT&T determined how to evolve the solution, where possible, to address 
these requirements.
    FirstNet and AT&T also have created a public website: FirstNet.com. 
This website provides information about the FirstNet solution, the 
unique value of the FirstNet Network to public safety, and how public 
safety entities may subscribe to FirstNet once a State or territory 
opts in. The site will host information on quality of service, priority 
and preemption; local control features; the applications store; devices 
and accessories for FirstNet; and coverage and rate plans.
                            official notice
    We are now in a critical decision making time for the FirstNet 
project. FirstNet released updated State Plans on September 19, 2017, 
based on the feedback received from States, territories, and public 
safety stakeholders. On September 29, 2017, FirstNet provided official 
notice to Governors, as required by the Act, which included 
notification of the completion of the request for proposal (RFP) 
process for the State, the delivery of the State Plan, and the funding 
level for the State as determined by the National Telecommunications 
and Information Administration (NTIA). The official notice initiated 
the 90-day clock that the Act provides for each State or territory 
Governor to make an ``opt in/opt out'' decision on its State Plan.\3\ 
The deadline for Governors to make this decision is December 28, 2017.
---------------------------------------------------------------------------
    \3\ As noted above, FirstNet is still working with Guam, Northern 
Mariana Islands, and American Samoa on delivering their State plans, 
and thus, did not provide official notice to the Governors of these 
territories on September 29, 2017. The 90-day decision period has not 
yet begun for these territories. With respect to Puerto Rico, due to 
the unique circumstances related to Hurricane Maria and the difficulty 
related to basic services operating in the wake of the storm, FirstNet 
has been unable to confirm the receipt by the Governor of the official 
notice, and therefore, the 90-day decision period for Puerto Rico has 
also not yet begun.
---------------------------------------------------------------------------
    FirstNet and AT&T will continue to actively engage with the States 
and territories to support their review of their respective State Plans 
and answer questions.
                        the governors' decision
    The decision that a Governor faces is one that will have profound 
consequences on the ability of public safety in his or her State or 
territory to gain access to mission-critical broadband.
                                 opt in
    A Governor's decision to opt in will enable FirstNet and AT&T to 
begin the process of delivering services to that State or territory's 
public safety community. It is a decision that will also drive 
infrastructure investments and job creation.
    If a State affirmatively opts in or takes no action on the State 
Plan within 90 days of receiving notice, which under the Act is also a 
decision to opt in, FirstNet will be able to start the process of 
deploying the RAN portion of the FirstNet Network in the State at no 
cost to the State. States do not have to wait the full 90 days to make 
an opt-in decision, and several States have already provided notice of 
their intention to opt in. The opt-in path is a low-risk option that 
will support faster delivery of services to the State's public safety 
community and help create an interoperable, highly secure, sustainable 
Network for public safety.
    We anticipate a significant number of opt-in announcements over the 
weeks and months ahead now that the 90-day clock has started.
                                opt out
    If the State elects not to participate in the FirstNet RAN 
deployment, pursuant to the Act, it must provide notice to FirstNet, 
the FCC, and NTIA within 90 days after receiving official notice from 
FirstNet, and within 180 days of such notice to FirstNet, the State 
must develop and complete an RFP for the State RAN. Subsequently, it 
must submit an alternative plan to the FCC for the construction, 
maintenance, operation, and improvement of the RAN in the State within 
60 days of RFP completion. The State RAN must be interoperable with the 
Network and comply with FirstNet's requirements and standards for the 
Network. Before the State's RAN deployment can begin, the FCC must 
approve the alternative plan, and, if approved, the State must then 
apply to the NTIA for the right to enter into a spectrum capacity lease 
with FirstNet, and ultimately agree to the terms of such a lease with 
FirstNet. As noted above, the State may also apply to NTIA for a State 
RAN construction grant under the State Alternative Plan Program.
    Opt-out States will assume all technical, operational, and 
financial risks and responsibilities related to building, operating, 
maintaining, and improving their own RAN for the next 25 years. Given 
the statutorily-mandated processes, it is possible a State pursuing 
opt-out will be at least 2 years behind States that opt in.
    It is important to note that if a State or territory wishes to opt 
out, FirstNet will do everything we can to make that opt-out process a 
success. Public safety cannot afford to have areas of no service 
throughout the country. We are encouraging States and territories to 
look at all the information in the State Plans to ensure that they 
fully understand the risks and requirements associated with opting out. 
We are confident that each State Plan will deliver the coverage, 
services, value, and experience States and territories expect for their 
first responders, bringing us closer to making the cutting-edge Network 
and technologies that public safety has been asking for a reality.
                               conclusion
    For more than 3 years, FirstNet has worked hand-in-hand with our 
partners in the States and territories to develop a Network that meets 
the needs and objectives of our Nation's first responders and other 
public safety personnel. After thousands of meetings and countless 
discussions with public safety, we feel confident about the overall 
Network solution and individual plans that we have proposed for each 
State and territory because they have been driven by and reflect public 
safety's input throughout the Nation.
    FirstNet has made a lot of progress over the past year. We 
successfully completed a comprehensive Nation-wide RFP process, which 
included prevailing in a protest action; awarded a 25-year contract to 
AT&T--an innovative private-sector technology partner who has nearly 
140 years of experience serving the public safety community; and worked 
effectively and efficiently with AT&T to deliver State Plans 3 months 
ahead of schedule and update those plans based on stakeholder input. We 
are now focused on preparing for the deployment of the Network in opt-
in States and territories and the next crucial phase of the project--
public safety user adoption.
    While there has been much success, we still have work to do. As the 
GAO highlighted, there are areas for improvement, and FirstNet is 
dedicated to continuing to strive for excellence in every area.\4\
---------------------------------------------------------------------------
    \4\ U.S. Government Accountability Office, Public Safety Broadband 
Network: FirstNet Has Made Progress Establishing the Network, but 
Should Address Stakeholder Concerns and Workforce Planning (2017).
---------------------------------------------------------------------------
    Through cooperation with the Department of Commerce, NTIA, the FCC, 
and other Federal partners, FirstNet has been able to achieve a great 
deal over the past year. Moving forward, we plan to continue to 
leverage these partnerships. Ultimately, the most important action that 
FirstNet must take is to continue to listen to public safety. We at 
FirstNet have been entrusted by public safety to deliver what they need 
in order to keep us safe. It is this belief that drives us at FirstNet 
and will ensure that we accomplish what public safety deserves--
excellence in service, reliability, and performance.

    Mr. Donovan. Thank you, Mr. Parkinson. The Chair now 
recognizes Mr. Goldstein for 5 minutes.

      STATEMENT OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
  INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Chairman Donovan, Ranking Member 
Payne, and Members of the subcommittee. Thank you for the 
opportunity to discuss our June 2017 report on FirstNet.
    We have previously reported and testified on FirstNet, most 
recently testifying in July 2017 on our latest report during 
the hearing held by the Senate Commerce Committee. My remarks 
today are based on our June 2017 report which examine 
FirstNet's effort to establish and finance the network, 
describe stakeholder views on network reliability, security, 
and interoperability challenges, and assess FirstNet's plan to 
oversee the deployment of the network by its network 
contractor.
    In our report, we recommended the FirstNet fully explore 
Tribal stakeholder concerns and assess its long-term staffing 
needs. FirstNet agreed with these recommendations and in 
September 2017 reported to us on actions it has taken to 
implement them, which we are now in the process of reviewing.
    Among our findings in the report are the following: First, 
that FirstNet has conducted key efforts to establish the 
network, namely releasing the request for proposal for the 
network and awarding the network contract to AT&T. As a 
contractor, AT&T will be responsible for the overall design, 
development production, operation and evolution of the network.
    Additionally, FirstNet consulted with State and local 
Federal and Tribal stakeholders. State officials GAO contacted 
were generally satisfied with FirstNet's effort to engage them. 
However, Tribal stakeholders GAO contacted expressed concern 
that FirstNet has not fully engaged in effective communication 
with Tribes, noting that individuals with first-hand knowledge 
of Tribes' experiences are not able to represent Tribal views 
directly. As a result of our report, FirstNet now intends to 
fully explore Tribal stakeholders' concerns, for example, by 
adopting an organization-wide Tribal consultation policy, as 
Mr. Parkinson referenced.
    Second, according to stakeholders GAO contacted, FirstNet 
faces various challenges to ensure the network's reliability, 
its security, and interoperability. For example, stakeholders 
raised concerns related to providing coverage to rural areas in 
buildings or underground, ensuring the network's overall 
resiliency and cybersecurity, and managing frameworks for user 
identity, credentialing of users, and access management and 
prioritization of users on the network.
    FirstNet has taken actions to address these challenges, 
such as by opening a test lab to test public safety devices and 
applications before deploying them on the network. The majority 
of stakeholders GAO contacted were satisfied with FirstNet's 
efforts, but many noted that much uncertainty remains about how 
the network will be implemented and about its overall 
viability.
    For example, substantial unknowns remain regarding how many 
public safety users will adopt the network, the extent to which 
AT&T will be successful in monetizing the spectrum to retain 
revenue from the network's commercial users, and the extent to 
which this revenue will be sufficient or appropriate in 
relation to the capital needed to build, operate, and maintain 
the network.
    Third, FirstNet established offices to oversee AT&T, 
develop policies and procedures to guide contract 
administration, including management and oversight, and is 
receiving assistance from another Federal agency with contract 
administration experience, although FirstNet plans to assume 
full responsibility in the future.
    For example, FirstNet established the Network Program 
Office to oversee AT&T's performance and facilitate quality 
assurance of contract deliverables. Although this office will 
perform essential contract administration functions, we found 
FirstNet lacked reasonable assurance that it will have 
sufficient resources to handle increases in its 
responsibilities over time.
    Planning for and assigning adequate resources, including 
people, and assessing resource needs is a key practice for 
planning and executing effective contract oversight. As a 
result of a report, FirstNet intends to perform a long-term 
staffing assessment for the Network Program Office so that it 
can be in a better position to respond to staffing changes and 
risks as it assumes full responsibility of contract 
administration. However, FirstNet's continued oversight of 
AT&T's performance will be important given the scope of the 
network and the 25-year duration of the contract.
    Mr. Chairman, this concludes my oral statement. I would be 
happy to address any questions that your Members of the 
subcommittee may have. Thank you.
    [The prepared statement of Mr. Goldstein follows:]
                     Statement of Mark L. Goldstein
                            October 12, 2017
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee: Thank you for the opportunity to discuss our June 2017 
report on the First Responder Network Authority (FirstNet).\1\ We have 
previously reported and testified on FirstNet, including most recently 
in a July 2017 hearing held by the Senate Committee on Commerce, 
Science, and Transportation's Subcommittee on Communications, 
Technology, Innovation, and the Internet.\2\ Whether conducting daily 
operations, overseeing planned events, or responding to emergencies, 
public safety officials--especially first responders such as police 
officers and firefighters--rely on communications systems to gather and 
share information and coordinate their efforts. However, first 
responders often have difficulty communicating with their counterparts 
in other agencies and jurisdictions because existing systems lack 
interoperability.
---------------------------------------------------------------------------
    \1\ GAO, Public-Safety Broadband Network: FirstNet Has Made 
Progress Establishing the Network, but Should Address Stakeholder 
Concerns and Workforce Planning, GAO-17-569 (Washington, DC: June 20, 
2017).
    \2\ GAO, FirstNet: Efforts to Establish the Public-Safety Broadband 
Network, GAO-17-702T (Washington, DC: Jul. 20, 2017). See also GAO, 
Public Safety Communications: Preliminary Information on FirstNet's 
Efforts to Establish a Nation-wide Broadband Network, GAO-15-380T 
(Washington, DC: Mar. 11, 2015); GAO, Public-Safety Broadband Network: 
FirstNet Should Strengthen Internal Controls and Evaluate Lessons 
Learned, GAO-15-407 (Washington, DC: Apr. 28, 2015).
---------------------------------------------------------------------------
    The Middle Class Tax Relief and Job Creation Act of 2012 (the 2012 
Act) created FirstNet and required it to establish a Nation-wide, 
interoperable public-safety broadband network (hereafter, the 
network)--setting aside spectrum for the network to operate on and 
providing FirstNet with $7 billion to fund the network's initial build-
out.\3\ FirstNet must be self-funding beyond this initial $7 billion. 
Key to the network's success, given its purpose, is its reliability, 
security, and interoperability. To inform its work, FirstNet must 
consult with State and local, Federal, and Tribal stakeholders.\4\ 
Since 2012, FirstNet has completed a number of tasks to plan for the 
build-out of the network, the most significant of which was the 
issuance of a Request For Proposal to solicit proposals from private 
companies to build, operate, and maintain the network. From these 
proposals, FirstNet selected AT&T as its network contractor and awarded 
it a multi-billion dollar, 25-year contract. Due to the size of the 
project and duration of the contract, the oversight mechanisms that 
FirstNet plans to use to monitor AT&T's progress and performance in 
building, operating, and maintaining the network are important.
---------------------------------------------------------------------------
    \3\ Middle Class Tax Relief and Job Creation Act of 2012. Pub. L. 
No. 112-96, 126 Stat. 156 (2012). FirstNet is an independent authority 
within the Department of Commerce's (Commerce) National 
Telecommunications and Information Administration (NTIA).
    \4\ Pub. L. No. 112-96,  6206(c)(2)(A), 126 Stat. at 213.
---------------------------------------------------------------------------
    My remarks today are based on our June 2017 report and like the 
report, addresses: (1) FirstNet's efforts to establish and finance the 
network; (2) stakeholder views on network reliability, security, and 
interoperability challenges FirstNet faces and its research and other 
efforts to address them; and (3) FirstNet's plans to oversee the 
deployment of the network by its network contractor. In our report, we 
recommended that FirstNet fully explore Tribal stakeholders' concerns 
and assess its long-term staffing needs. FirstNet agreed with these 
recommendations and, in September 2017, reported to us on the actions 
it has taken to implement them.
    For our report, we reviewed the 2012 Act, FirstNet documentation, 
and documentation from other Federal entities involved in FirstNet's 
efforts, such as FirstNet's key research partner, the Public Safety 
Communications Research (PSCR) program.\5\ We compared FirstNet's 
efforts to respond to Tribal stakeholders' concerns with the applicable 
key principle of effective Tribal communication on Federal 
infrastructure decisions developed by several Federal agencies.\6\ We 
assessed the PSCR's and FirstNet's research activities against our 
previously-identified criteria on key phases of sound research 
programs.\7\ We assessed FirstNet's contract oversight plans against 
key acquisition and contract oversight practices and actions 
established in Federal acquisition regulations, the Department of 
Commerce's (Commerce) acquisition manual, prior GAO reports, and other 
academic and industry sources.\8\ We also interviewed FirstNet and 
Commerce officials. To obtain stakeholder views on all our objectives--
particularly the challenges FirstNet faces--we selected and contacted 
33 stakeholders, including public safety, State and local government, 
and Tribal associations and organizations; the Department of Homeland 
Security, the Federal Communications Commission, and the National 
Institute of Standards and Technology (NIST) and the National 
Telecommunications and Information Administration; and State government 
and public safety officials. We selected these stakeholders to obtain a 
variety of viewpoints from a cross-section of interests and geographic 
locations; their views are not generalizable. Further details on our 
scope and methodology are included in our report. The work on which 
this statement is based was conducted in accordance with generally 
accepted Government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions based on our audit 
objectives.
---------------------------------------------------------------------------
    \5\ The PSCR is a joint program between Commerce's National 
Institute of Standards and Technology and NTIA.
    \6\ U.S. Departments of the Interior, the Army, and Justice, 
Improving Tribal Consultation and Tribal Involvement in Federal 
Infrastructure Decisions (January 2017).
    \7\ GAO, Employment and Training Administration: More Actions 
Needed to Improve Transparency and Accountability of Its Research 
Programs, GAO-11-285 (Washington, DC: Mar. 15, 2011).
    \8\ Commerce, Selecting Contract Types, Commerce Acquisition 
Manual, 1316.1, 6.3 (March 2016); GAO, Joint Information Environment: 
DOD Needs to Strengthen Governance and Management, GAO-16-593 
(Washington, DC: July 14, 2016); GAO, National Science Foundation: 
Steps Taken to Improve Contracting Practices, but Opportunities Exist 
to Do More, GAO-13-292 (Washington, DC: Mar. 28, 2013); GAO, 
Information Technology Investment Management, A Framework for Assessing 
and Improving Process Maturity, GAO-04-394G (Washington, DC: Mar. 1, 
2004); Software Engineering Institute/Carnegie Mellon, Capability 
Maturity Model Integration (CMMI) for Acquisition, Version 1.3, CMU/
SEI-2010-TR-032 (Pittsburgh, PA: November 2010); Project Management 
Institute, Inc., The Standard for Program Management--Third Edition 
(Newtown Square, PA: 2013); Project Management Institute, Inc., A Guide 
to the Project Management Body of Knowledge (PMBOK Guide)--Fifth 
Edition (Newtown Square, PA: 2013). PMBOK is a trademark of Project 
Management Institute, Inc.
---------------------------------------------------------------------------
    firstnet's progress establishing and financing the network and 
                        consulting stakeholders
    In our June 2017 report, we found that FirstNet has conducted key 
efforts to establish the network, namely releasing the request for 
proposal for the network in January 2016 and awarding the network 
contract to AT&T in March 2017. As the contractor, AT&T will be 
responsible for the overall design, development, production, operation, 
and evolution of the network, as well as the marketing, product 
management, sales, distribution, and customer care. Further, we found 
that FirstNet has established a framework to meet the financial 
requirements established in the 2012 Act, as depicted in figure 1. This 
framework focuses on leveraging FirstNet's spectrum through the use of 
payments and fees with the aim of ensuring that the network is 
financially sustainable over the life of the contract and that FirstNet 
sustains self-funding operations.
  figure 1.--first responder network authority's (firstnet) financial 
                               framework
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Note.--AT&T's expected investment in the network includes its annual 
minimum payments to FirstNet.

    By establishing a single, dedicated network for public safety use, 
FirstNet's network is expected to foster greater interoperability and 
meet public safety officials' reliability and other needs. However, the 
actual use (or ``adoption'') of the network by public safety users will 
be voluntary. Thus, even with the establishment of this framework, 
substantial unknowns remain regarding how many public safety users will 
adopt the network, the extent to which AT&T will be successful in 
monetizing the spectrum to retain revenue from commercial users, and 
the extent to which this revenue will be sufficient or appropriate in 
relation to the capital needed to build, operate, and maintain the 
network. Therefore, we noted that, at the time of our report, we could 
not assess the viability of this framework and whether FirstNet's 
structures for overseeing the contractor's use of the spectrum for 
commercial users will be appropriate.
    We also found that FirstNet has made progress consulting with State 
and local, Federal, and Tribal stakeholders through a variety of 
mechanisms. State officials we contacted were generally satisfied with 
FirstNet's efforts to engage them. However, Tribal stakeholders we 
contacted expressed concern with FirstNet's efforts to consult with 
Tribes per the 2012 Act's requirements. In particular, four of the five 
Tribal organizations we contacted said that FirstNet has not fully 
engaged in effective communication or has relied on State points of 
contact too much as opposed to engaging directly with Tribes; the other 
Tribal organization was not aware of FirstNet or its mission at all. 
Further, Tribes noted that individuals with first-hand knowledge of 
Tribes' experiences are not able to represent Tribal views directly 
among FirstNet's key decision makers. FirstNet has stated that, indeed, 
the 2012 Act requires that it consult with Tribes through State points 
of contact. Nevertheless, several Federal agencies have identified 
seeking a full understanding of Tribal concerns--and reaching consensus 
where possible--as a key principle of effective Tribal communication, 
noting that agencies should adapt to changing circumstances, 
contemplate creative problem solving, identify options for addressing 
concerns, and exhaust alternatives to achieve mutually agreeable 
solutions.\9\
---------------------------------------------------------------------------
    \9\ U.S. Departments of the Interior, the Army, and Justice, 
Improving Tribal Consultation and Tribal Involvement in Federal 
Infrastructure Decisions (January 2017).
---------------------------------------------------------------------------
    We concluded that, by fully exploring and proposing actions to 
address Tribal stakeholders' concerns, FirstNet could help improve its 
relations with Tribes and better meet stakeholders' needs. As such, we 
recommended in our report that FirstNet fully explore Tribal concerns 
and propose actions, as needed, to address those concerns. FirstNet 
agreed with this recommendation and, in September 2017, described to us 
the actions it has taken to implement it. For example, according to 
FirstNet, in September 2017 it began a process to formally explore the 
Tribal outreach concerns raised in our report and expects to propose 
improvements by the end of this year. FirstNet has also said that it 
adopted an organization-wide Tribal consultation policy which it 
expects to take effect toward the end of this year. If implemented as 
planned, these actions should address the intent of the recommendation.
    firstnet's network reliability, security, and interoperability 
                 challenges and efforts to address them
    In our report, we found that--according to stakeholders we 
contacted--FirstNet faces various challenges to ensure the network's 
reliability, security, and interoperability. For example, stakeholders 
raised concerns related to:
  <bullet> providing network coverage to rural areas, in buildings, or 
        underground;
  <bullet> ensuring the network's overall resiliency and cybersecurity; 
        and
  <bullet> managing frameworks for user identity, credentialing of 
        users, access management, and prioritization of users on the 
        network.
    However, we also found that both FirstNet and the PSCR have begun 
research and other efforts to help ensure the reliability, security, 
and interoperability of the network and address the challenges raised 
by stakeholders. For example, in November 2016, FirstNet opened an 
Innovation and Test Lab at its technical headquarters in Boulder, 
Colorado. According to FirstNet documentation, FirstNet plans to use--
and allow AT&T to use--the lab to test public safety devices and 
applications before deploying them on the network. Additionally, the 
PSCR has conducted research on behalf of FirstNet and, using $300 
million in funds provided to NIST by the 2012 Act, is also planning for 
and implementing other research activities to support FirstNet. For 
instance, in January 2016, PSCR launched its Public Safety Innovation 
Accelerator Program to support these research activities, and in 
December 2016, NIST issued a funding announcement to fund research in 
several areas.
    At the time of our report, we found that PSCR's research process 
generally aligned with key phases of sound research programs identified 
by leading National organizations, including the American Evaluation 
Association and the National Academy of Sciences.\10\ For example, PSCR 
has established a structured process for developing research priorities 
that includes both internal and external stakeholders, and has 
identified criteria it uses to help it select the research areas to 
fund and procedures to help it guide and monitor its research. 
Similarly, FirstNet has determined its research priorities to date 
based on its network-planning needs and in consultation with internal 
and external stakeholders, and worked with the PSCR to define criteria 
to help it select research areas.
---------------------------------------------------------------------------
    \10\ GAO-11-285.
---------------------------------------------------------------------------
    Further, we found that the majority of stakeholders we contacted 
were satisfied with the planning efforts to ensure the reliability, 
security, and interoperability of the network. However, many 
stakeholders also said that there is much remaining uncertainty about 
how this will be implemented in practice. Additionally, one public 
safety official we contacted told us that FirstNet and its contractor 
will have to balance the costs associated with implementing features 
that make the network reliable and secure with the need to establish 
compelling and competitively-priced service packages and fees that will 
encourage user adoption of the network.\11\ Indeed, numerous 
stakeholders we contacted cited the cost of subscribing to the network 
as a key factor affecting user adoption, noting that the pricing must 
be comparable to what they pay for commercial service now, that budgets 
are constrained in the public safety community, or that local 
governments do not want costs to increase. Further, commercial carriers 
could choose to compete with FirstNet. FirstNet has stated that it 
expects AT&T to provide services at a competitive price and deliver 
affordable, high-quality services that will encourage public safety 
users to adopt the network. Ultimately--because the network must be 
self-funding and FirstNet has stated that revenue from network users 
will be critical to this funding--the success of the network depends on 
whether FirstNet and AT&T generate enough revenue to operate it over 
the long term and whether public safety users adopt it, no matter how 
reliable and secure it is.
---------------------------------------------------------------------------
    \11\ For additional discussion of factors that may affect user 
adoption, see GAO-15-407.
---------------------------------------------------------------------------
                firstnet's contract oversight mechanisms
    FirstNet must manage and oversee the implementation of the network 
contract to build, operate, and maintain the network.\12\ Federal 
internal-control standards also state that an entity's management 
retains responsibility for the performance of processes assigned to 
service organizations (such as contractors) and that management should 
hold these organizations accountable for their performance.\13\
---------------------------------------------------------------------------
    \12\ Pub. L. No. 112-96,  6206(b)(1)(D) 126 Stat. at 212.
    \13\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, DC: September 2014).
---------------------------------------------------------------------------
    In our report, we found that FirstNet has taken a number of steps 
to establish contract oversight mechanisms, but has not fully assessed 
the staffing needs of its oversight workforce. FirstNet's oversight 
mechanisms include developing policies and procedures to guide contract 
administration and establishing offices to oversee its network 
contractor. In particular, FirstNet established the Network Program 
Office to oversee the contractor's performance and facilitate quality 
assurance of contract deliverables, among other things. FirstNet is 
also receiving assistance from the Department of the Interior, which 
has experience with contract administration, although FirstNet plans to 
assume full responsibility for contract administration in the future. 
We also found that FirstNet's efforts to develop contract oversight 
mechanisms aligned with several key actions that we identified as 
contributing to effective contract oversight. However, although 
FirstNet's Network Program Office will perform essential contract 
administration functions, FirstNet had not conducted long-term 
projections of staffing needs for the office as of April 2017. Planning 
for and assigning adequate resources, including people, and performing 
an assessment of the resources needed to oversee projects is one of the 
key actions we identified for planning and executing effective contract 
oversight.
    We concluded that FirstNet lacks reasonable assurance that it will 
have sufficient resources to handle increases in its responsibilities 
over time and that, by performing a long-term staffing assessment for 
the Network Program Office, FirstNet would be in a better position to 
fully understand its staffing needs and respond to staffing changes and 
risks as it assumes full responsibility of contract administration in 
the future. As such, we recommended in our report that FirstNet assess 
the long-term staffing needs in the Network Program Office prior to 
assuming full responsibility for administering the network contract. 
FirstNet agreed with this recommendation and, in September 2017, 
described the actions it has taken to implement it. According to 
FirstNet, in August 2017 the Network Program Office adopted a strategic 
workforce plan for fiscal years 2018 to 2022, which it expects to 
update annually. According to FirstNet, this plan provides a 
comprehensive view of current and future human capital needs required 
to support the implementation of the network and identifies strategies 
the office will employ to fill gaps between current and future needs, 
among other things. If implemented as planned, this action should 
address the intent of the recommendation.
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Mr. Donovan. Thank you, Mr. Goldstein. I now recognize 
myself for 5 minutes for questions to the panel.
    Admiral, Mr. Parkinson, the legislation that established 
FirstNet requires that auctioning the T-Band spectrum and 
requires first responders use the network--to be clear of that 
network by 2021. Eleven major metropolitan areas, including New 
York City, rely heavily on the T-Band for their radio networks. 
A 2013 report by the National Public Safety Communications 
Council found that there is insufficient alternative spectrum 
for these jurisdictions to move onto.
    Do you share my concern about the T-Band giveback 
requirement and the impact it could have on major responding 
operators in major cities like New York?
    Admiral Hewitt. Thank you, Chairman Donovan. The T-Band 
auctioning has been a major concern for the SAFECOM group that 
I have mentioned earlier, which is a group of associations of 
all public safety. In particular, as you alluded to, Boston, 
Chicago, Los Angeles, New York, and Philadelphia, it doesn't 
look like there is spectrum to move to based on that NPSTC 
report.
    So with that, we'd enjoy working with you and your staff if 
you would like to look at options. We are reviewing it. We are 
working with FCC, who is required to do that, and to find out 
what flexibility that they have to work. But we would love to 
work with you in looking at solutions for that.
    Mr. Parkinson. Congressman, yes, as the admiral mentioned, 
this is the jurisdiction of the FCC. They have the 
responsibility to find the solution on this. Our focus is 100 
percent on the deployment of the Nation-wide public safety 
broadband network, and so that is our primary focus. We look 
forward to seeing resolution on this.
    Mr. Donovan. Has the FCC been in touch with you? Have they 
been cooperative? Have they addressed your concerns?
    Mr. Parkinson. I would direct you, really, to the FCC on 
that one, given that it is their sole focus, and ours is 
somewhat separate, given the deployment of the NPSBN.
    Mr. Donovan. Are you aware of how much spectrum might be 
necessary that--when we talk about insufficient, is it 10 
percent insufficient? Is it 50 percent insufficient? Do we have 
an idea of what--how much spectrum we are lacking now?
    Admiral Hewitt. From the study, the T-Band was for 470 to 
512 megahertz, and there is not spectrum in those five major 
urban areas to move that to. The majority of the traffic, 
especially in New York, in your district, is all on the T-Band.
    Mr. Donovan. Thank you. We have seen many--I guess this is 
to the admiral--we have seen many technological developments in 
the area of emergency communications that make it easier and 
more efficient for first responders to communicate. However, 
with these advancements come cybersecurity risks, something 
that this subcommittee has discussed in a roundtable, as I 
mentioned in opening remarks. How is OEC working with the 
stakeholders to raise awareness about and how to address cyber 
risks for our first responder communication networks?
    Admiral Hewitt. Thank you, Chairman Donovan. We have been 
working for the last 4 years with public safety through SAFECOM 
to educate them on the cyber risks that are out there.
    We have a program called CAPTAIN, which is our 
cybersecurity and physical risk assessment of IP networks, and 
also we have developed a bunch of best practices for mobile 
application development to help address those issues. Because 
as they move into IP, it comes with a lot more capability, but 
cybersecurity is going to be a huge risk. So just educating 
them now, getting them ready so as FirstNet deploys they will 
be able to make sure they keep a secure network.
    Mr. Donovan. Admiral, is there a system in which if they 
see either intrusions or attempts, that they could share that 
information to their colleagues in other cities so they could 
be made aware of--if an attempt is made in New York that we can 
inform our colleagues in San Francisco to be aware of this?
    Admiral Hewitt. Yes, sir. As part of the Cybersecurity Act 
that the NCCIC was involved, the National Cybersecurity and 
Communications Integration Center, is the reporting place for--
all SWICs can report any cyber incidents to them and that then 
gets disseminated out through that means.
    Mr. Donovan. My time has expired. Chair recognizes my 
colleague from New Jersey, the Ranking Member, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Let's see. Admiral 
Hewitt, in your testimony, you talked about the declining 
numbers of dedicated full-time SWICs and less active State 
interoperability governing bands. As I observed in my opening 
statement, governance is critical to interoperability. Why has 
there been such a decline in dedicated SWICs and government 
structures? What effect will it have on interoperability?
    Admiral Hewitt. Thank you, Ranking Member Payne. With the 
number of SWICs, full-time SWICs, as you alluded to in your 
opening statement, it's down to 12 now. We were at a high of 
44. Even though under the Homeland Security Grant Program it is 
an allowable cost, what we are seeing, since we don't have that 
dedicated grant--we used to have an interoperable emergency 
communications grant program, and when--that was from 2008 to 
2010--we went from a handful of SWICs to 44.
    Similarly, Department of Commerce in 2013, with the advent 
of FirstNet, NTIA did a State and local interoperability grant 
program, and the number of spots went from zero to 56. So when 
you do have dedicated grants, that has definitely been a 
benefit. So we are working with FEMA grants programs, Tom 
Donato, the director over there, to look at what are the 
possibilities that we can do to help change that around.
    Mr. Payne. So those grants aren't available to States 
anymore?
    Admiral Hewitt. Well, the ICGP went away in 2010, sir.
    Mr. Payne. In 2010? OK.
    Admiral Hewitt. Yes, sir.
    Mr. Payne. So how can we be of help to mitigate--Congress 
mitigate these impacts?
    Admiral Hewitt. Well, your support, sir, has been 
tremendous, with the SWIC bill and raising the awareness so 
people understand that interoperability is more than just 
technology. The key piece is governance. So we really 
appreciate all the support you have been giving us.
    Mr. Payne. OK. Let's see. OK. Let's see. Also, from the 
issue around these hurricanes, Harvey and Maria, what is your 
assessment of how our emergency communications have performed? 
What are some of the lessons learned from this hurricane season 
with respect to emergency communications?
    Admiral Hewitt. Well, with Harvey, that was primarily a 
rain event in Houston. We were able to pre-position with the 
Federal Government responses controlled through FEMA and the 
National Cybersecurity and Communications Integration Center is 
what they call emergency support function No. 2 communications. 
They were able to pre-position a lot of communications 
capabilities to go in behind and resurrect it.
    Plus they coordinate--FCC gets reports through the disaster 
information system on carrier issues. They coordinate the 
restoration from that. It actually went very well for Harvey. 
When Irma came through Florida, the same thing, we were able to 
pre-position. Maria and the islands, it was impossible to pre-
position, because every island got wiped out.
    So, with that, too, the winds were much higher and above 
the towered conditions. Most towers can take up to a level 
three hurricane, and with level five, just about every tower, 
if it wasn't knocked down, the microwave links that are the 
back holes were misaligned, and so we're totally having to 
rebuild Puerto Rico.
    But the transportation of getting equipment, AT&T, you 
know, all the carriers trying to get equipment in there has 
been very difficult. Just getting in flights, trying to get the 
logistics of the ships in. Coast Guard has been bringing in 
ships and trying to get the logistics. Then once you get it 
there, the roads were totally wiped out. So trying to get up 
into the mountains has been very difficult on rebuilding that 
whole infrastructure.
    But even with all that, they still have about 6 out of 10 
citizens there do have cellular today because they have been 
just working around the clock to get capabilities in there.
    Mr. Payne. OK. Mr. Parkinson, FirstNet is supposed to be 
financially self-sustainable. Will it be?
    Mr. Parkinson. Yes, Congressman. One of the key factors of 
when we were developing the procurement was to develop a 
recapitalization model so that the system--we would never have 
to come back to Congress and ask for more funds, so that the 
revenue that was generated by the network, as required by 
statute, was reinvested back into the network. We believe that 
the model that we have been able to develop through the 
procurement will sustain the network in perpetuity.
    Mr. Payne. OK. But if I am not mistaken, during the GAO, 
your comments, you had a question about whether they were going 
to be sustainable. Is that correct?
    Mr. Goldstein. Yes, Mr. Payne. I think it remains unclear 
at this point in time as to how viable the network will be. It 
depends on how it is built out. It depends on who actually 
subscribes. It depends on competitors. Verizon has decided that 
it is likely to compete.
    So I think it remains unknown. That is not to say that 
FirstNet isn't doing sort of everything it can I think at this 
point, but this is--there are a great number of unknowns and 
challenges going forward about how the network will develop and 
whether it will be actually sustainable over time.
    Mr. Payne. Mr. Parkinson, how do you respond to that?
    Mr. Parkinson. I understand that there are concerns and I 
understand that there are--with any project, with any business, 
there is risk. That being said, we have been able to shift, as 
there is the model of the RFP that we were able to put forward, 
shifted the risk away from the Federal Government and onto 
AT&T. By signing up for the commitment for the next 25 years, 
we have been able to push that over.
    Of course, there will be--there are challenges in terms of 
user adoption, but we have plans for that. We certainly are 
intending to hit the numbers that we--and AT&T is trying to hit 
the numbers that they have been mandated to go out there and 
get.
    But as I said before in my opening testimony, judge us on 
what we do and judge us on our results, and I think we will be 
able to find a good story at the end of it.
    Mr. Payne. OK, thank you. Mr. Chairman, I apologize for 
going over. I yield back.
    Mr. Donovan. The gentleman yields. The Chair now recognizes 
the gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to welcome our witnesses here today. Thank you for 
your testimony.
    Mr. Parkinson, if I can start with you, somewhat in 
relation to the Ranking Member's question, our emergency 
communications system obviously is critical to our ability to 
respond to natural disasters and to terrorist attacks. However, 
during these events, and certainly as the admiral has 
identified, critical infrastructure that our communications 
rely on, such as our electrical grid, are often--are often 
degraded. Again, we saw that in the aftermath of Hurricanes 
Harvey and Irma and Maria. It can be days or even weeks before 
power was--is actually restored.
    So how is FirstNet ensuring that the emergency 
communications networks will be resilient, again, going forward 
when supporting critical infrastructure is unavailable?
    Mr. Parkinson. It is a terrific question, Congressman. One 
of the things that we have really looked at is the hardening of 
the network. Our public safety advisory committee, as well as 
NPSTC, which the admiral referenced earlier on, have released 
reports on the standards of hardening that they expect the 
network to be built to. We have taken these. We have looked at 
them. We certainly are going to be looking to require that the 
network is built to a sufficient level of hardening so the 
robustness of the network is continue and can continue where 
National disasters, man-made events, et cetera, like that do 
continue.
    I think you also have to look at the various technologies 
that will be deployed through the system in areas where there 
may not be a traditional network with towers and so on, we are 
going to be leveraging deployables. We are going to be looking 
to pre-position assets, as Mr. Hewitt described with the storms 
recently in Texas and Florida, we will be able to provide 
similar assets specific to public safety broadband in areas 
where we can anticipate natural disasters, such as hurricanes, 
occurring.
    All of this is being coordinated at the State level, and we 
have been working very closely with the single points of 
contact and with the respective Governor's office throughout 
the Nation. We certainly anticipate things like that occurring 
in the future.
    Mr. Langevin. Thank you. Identity management and 
authentication is a core functionality in every network. For 
FirstNet, I think it is even more crucial that identity 
management is properly implemented due to the large 
concentration of very sensitive public safety information 
traveling through a single network. So what is FirstNet's 
approach to ensuring that only first responders have access to 
the emergency communications network? What are the potential 
harms if an unauthorized user could gain access?
    Mr. Parkinson. It is a terrific question, Congressman. So 
ICAM is fundamental to any aspect. What we can't have is a 
State trooper, for example, driving at 160 miles an hour down a 
highway expected to punch in a 16-digit code to gain access to 
the portal. So, again, our public safety advisory committee has 
looked at this. It is a 43-member organization that advises 
FirstNet on a variety of aspects. As I mentioned, hardening is 
one topic. ICAM is another.
    So we are really trying to get that local feel, and, 
really, the local requirements from those individuals who 
represented on the PSAC. That is information that they gather 
and the recommendations that they do send forward to FirstNet 
are taken by our team, so that they will be able to be 
ultimately implemented based on the needs of public safety on 
the local ground.
    Mr. Langevin. OK, thank you. I may have a follow-up on 
that, if time permits, but I do want to get to Mr. Goldstein. 
Mobile communication has moved to a new technology generation, 
roughly every 10 years. We understand how quickly, obviously, 
technology changed. Moore's Law, case in point, where it 
squares every 18 months.
    But starting--going back on the technology and the 
communication, verbal communication side, starting with the 
first-hand networks in 1981 to the fourth generation comms that 
power our smartphones today, over the course of this contract, 
it can be reasonably assumed that cellular technology will 
advance significantly in capability. What is FirstNet's plan 
for sustainment over the next 25 years to ensure that our first 
responders are utilizing the best commercial technology 
available throughout the contract?
    Mr. Goldstein. You are right, Congressman. It is a very 
slippery slope in terms of changes in technology. One of the 
things that FirstNet is going to have to do is ensure that AT&T 
has the capacity and the resources to refresh technology as 
time goes on, as will any other competitor to this program. So 
we don't know.
    But their contracting operations and their network program 
office is going to have to be able to take responsibility to 
ensure that AT&T is providing the best possible services and 
technology. Because at the end of the date, if they don't, 
subscribers can walk. They can go elsewhere. The network won't 
be successful if other competitors are able to offer better 
services, so it is in their best interest, as well, to try and 
do that.
    Mr. Langevin. OK. Mr. Parkinson, do you care to comment? 
Could you provide some insight of what the plan is over the 
next 25 years?
    Mr. Parkinson. I think that is really one of the beauties 
of the contract itself, that the longevity that AT&T and 
FirstNet have entered into for the next 25 years provides an 
opportunity, frankly, for public safety to take advantage of 
how you and I or anyone in this room has been able to leverage, 
you know, this sort of a device since the first iPhone came 
along, say, 10 years ago.
    I think of this--I always use this analogy. Think of how 
you used your cell phone even 5 years ago versus how you use it 
today and what it can do possibly in 5 years' time. Think of 
how you used the internet 5 years ago and how you use it today.
    I think that is where public safety is going to be able to 
now finally be at the forefront in terms of how we are able to 
provide services similar to commercial services, but dedicated 
to public safety. That is the first time that public safety 
will be in that position. Frankly, I think it is one of the 
most exciting aspects of the project and one of the reasons it 
was attractive to me in the first place.
    Mr. Langevin. OK, very good. Thank you. My time has 
expired. Thank you, Mr. Chairman.
    Mr. Donovan. The gentleman's time is expired. The Chair now 
recognizes the gentlewoman from Arizona, Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Appreciate your 
testimony today, gentlemen.
    I recently was visiting Tombstone, Arizona. Everybody 
should know where Tombstone is. A very small community. As I 
was visiting with the marshal there, one of the challenges that 
they have as a very small law enforcement agency on the border 
is interoperability with the other agencies around them, the 
sheriffs, the Border Patrol.
    I know there was--OEC had a border interoperability 
demonstration project, $25 million, to specifically address 
some interoperable communications related to the border. I am 
wondering, Admiral Hewitt, if you can give me some insights as 
to, you know, anything that is come from that and how we can 
help rural communities along the border, like Tombstone, like 
Douglas, Bisbee, others in my district, very small, very 
limited budget.
    But they are often dealing with Federal law enforcement 
issues, and they can't talk to Border Patrol and they can't 
afford to buy the systems that Border Patrol has, and so they 
are literally in the dark and sometimes doing the job of, 
ultimately, what is Federal responsibilities, but they are 
right there in the middle of it.
    So what can I say back to the mayor and the marshal of 
Tombstone about how perhaps--what we have learned from this $25 
million or how FirstNet or--what is going to help them and when 
is that going to be helping them?
    Admiral Hewitt. Well, thank you, ma'am. With the border 
interoperability demonstration project, BIDP, as you alluded 
to, that was a $25 million grant program that expired a few 
years ago, but Yuma was a great recipient of that.
    With the $4 million that they did receive, they were able 
to take their regional communications system from about four 
agencies to over 45--that included five tribes--and with that, 
not only build out the system, but more importantly, get the 
governance in place that created the standard operating 
procedures on how they are going to use it, and then they 
bought the applications to support those standard operating 
procedures from that.
    So they are getting great benefit from that. It does show 
that when you do have Federal funding that you are able to 
support them. They get a great----
    Ms. McSally. Yes, so how do we extend that to Cochise 
County? Because they are really struggling. Again, Tombstone is 
just an example. What kind of funding is available? Or just 
what is the way ahead for these communities that right now 
can't talk to the agencies around them while they are in the 
middle of trying to deal with the border security issue?
    Admiral Hewitt. We can work with them. We also support 
through the Emergency Communications Preparedness Center, which 
is 14 Federal agencies. Of those, several of them do provide 
grants. We can find out if any of them are available to support 
that.
    Ms. McSally. OK, great. But is the vision that they will be 
able to afford subscribing to FirstNet and that FirstNet is 
going to be their solution? Is that really going to be 
affordable to little towns with very limited resources like 
this?
    Mr. Parkinson. One of the biggest problems we have, 
Congresswoman, is exactly that, budgetary issues. If you think 
of this, volunteer firefighters make up 70 percent of the 
firefighters in this country. They often hold cake sales just 
to fund their things.
    So one of the programs that we have developed at FirstNet 
is BYOD, bring your own device, so that with regards to the 
Congressman Langevin's question regarding ICAM, make sure that 
those individuals who are public safety individuals can be 
credentialed with their own personal device and then can gain 
access to the public safety aspects of FirstNet. So I think 
that provides, frankly, a really strong opportunity.
    One other part of that, I think, too, is the coverage 
aspects that rural communities face when it comes to broadband, 
and obviously not just to public safety broadband. There are 
requirements in our statute and requirements in the contract 
with AT&T that there are rural milestones--and this is in the 
law, too--that have to be built out.
    So we have been working with the Governor's office in 
Arizona, we have been working with the single point of contact 
in the SAIC--that is the governance body within Arizona--to 
ensure that the needs of local public safety are addressed 
within the State plan.
    Ms. McSally. Great, thanks. Admiral Hewitt, I know we are 
talking a lot about what FirstNet can bring and across 
jurisdictions for emergency communications, but there was a 
report out last year--I apologize, I don't know if it was GAO 
or OIG--that talked about some of the challenges within the 
Department of Homeland Security of CBP, different--Border 
Patrol not being able to talk to OFO and how that really was 
potentially endangering lives, and they are having to embed 
people in the other organizations in order to make up for it.
    So how are you dealing with some of the interdepartmental 
lack of interoperability and communications, as well?
    Admiral Hewitt. Yes, ma'am. Within that, the Department has 
a joint wireless program management office that brings all the 
agencies together. OEC provides communications unit training, 
which is the incident command system and it is the methodology 
that we used to support interoperable communications.
    Ms. McSally. So you are saying the things that were brought 
up--are you familiar with the report I am mentioning?
    Admiral Hewitt. Yes.
    Ms. McSally. Have they been fixed?
    Admiral Hewitt. They are being worked on now.
    Ms. McSally. They are being worked on.
    Admiral Hewitt. Several of them have been fixed.
    Ms. McSally. OK, great, I am out of time. I do have some 
more questions, but if you are doing another round, I will come 
back.
    Mr. Donovan. We are going to allow another round. 
Gentlemen, if you don't mind, since there are only four Members 
here, many of us have maybe one or two more questions. Your 
information is invaluable to us, so we appreciate an 
opportunity to ask another question.
    So, Admiral, I will take the first question. You spoke 
about the devastation of Puerto Rico and what the 
communications systems are like right now. In Irma, Harvey, 
Maria, what were the communications like during the storms? 
Were first responders able to communicate with each other 
during those storms, whether it was in a rescue effort, an 
evacuation effort, whatever it may have been? Were the 
capabilities there doing this that we were lacking during 9/11 
or lacking during super storms before this?
    Admiral Hewitt. Thank you, Chairman. We haven't received 
the full after-action reports from those. I can get that to 
you. But the anecdotal information we heard is, like, Key West, 
they evacuated, so they had told their citizens we aren't going 
to be able to respond to 9-1-1. That area took over 80 percent 
of their communications was out. But they had gotten the word 
out to the citizens, and hopefully most of them evacuated up 
north.
    But there was only--in Texas, there were three counties 
that lost over 80 percent. As I mentioned, we were able to pre-
position most of the time public safety because of the life-
threatening winds and everything--they were not able to 
respond, but it wasn't because of lack of communications. It 
was just for safety of life. So after the storm, there were 
outages. We did pre-position equipment, and we did try to get 
things back up as quickly as possible.
    Mr. Donovan. We are still waiting for an assessment of 
whether first responders were able to communicate with one 
another during the actual storms? We are still waiting for 
that?
    Admiral Hewitt. Yes, sir. With land mobile radio, you can 
actually do direct mode. So you can--even if the tower is down, 
you can actually communicate with each other. There was a lot 
of that going on. With cellular, you have to have the tower up, 
but then with--immediately after, they--as Mr. Parkinson said, 
there are deployables. All the carriers put in deployables to 
get that system up as quickly as possible.
    Mr. Donovan. I would appreciate it, Admiral, if when that 
report does come out, if there is an aftermath assessment of 
our abilities to communicate during tragedies, if you could 
share that with the committee, that would be wonderful.
    Admiral Hewitt. Yes, sir.
    Mr. Donovan. The other thing I would like to just ask, Mr. 
Parkinson, there are about 27--am I correct there are 27 States 
now that are involved in FirstNet? Is there a reluctance on the 
other 23 States? Is it just timing, trying to get them on? At 
some point, do you anticipate all 50 States being on?
    Mr. Parkinson. Don't forget the territories and the 
District of Columbia, too, sir. So we are in a stage now where 
the Governors have a 90-date mandated period in which they can 
make their decision. So those Governors are reviewing the 
information that we have put forward to them, and we fully 
anticipate others signing up and opting in.
    Just yesterday, as you reference in your opening testimony, 
Governor Holcomb of Indiana opted into the network. So we 
expect more to come hopefully in the next few days, in the next 
weeks, but that 90-day time period that Governors have expires 
on December 28. So that is the time period in which Governors 
have to make the decision.
    Mr. Donovan. Wonderful, thank you. The Chair now recognizes 
the Ranking Member, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    To Admiral Hewitt and Mr. Parkinson, the mission of both of 
your organizations is to improve interoperable communications 
for first responders. We have a goal that we are trying to 
meet. Can you talk about how, if at all, are we seeing FirstNet 
work together to advance first responder communications? I 
think that will be very crucial in the future to see that.
    Admiral Hewitt. Thanks, Ranking Member Payne. From the 
beginning of FirstNet, in 2012, when they originally stood up, 
they actually had the board members, which--with the 15 
members, there are three, actually, permanent members, DHS, 
Department of Justice, and OMB. We have been working very 
closely with them.
    In fact, SAFECOM was being used, and actually the genesis 
for the public safety advisory council that Mr. Parkinson 
alluded to, which is their advisory board, so we helped them 
set that up. In terms of getting Federal members on board, we 
use the emergency communications preparedness center, which is 
14 Federal agencies that have emergency communications 
responsibilities.
    So we have been working closely--and just last month, I was 
designated the DHS rep to the FirstNet board. We have been 
working very closely. One of the things we did right away with 
all the States, they wanted to have a better understanding of 
what kind of coverage their existing land mobile radio so they 
know how to compare it with the FirstNet plan.
    So working with FirstNet, we did a technical assistance 
with all the States to roll that out. Then now we are doing a 
cybersecurity awareness so they will be better prepared when 
they get FirstNet capabilities to ensure that it is a secure 
network.
    Mr. Payne. OK, that is it.
    Mr. Parkinson. That is pretty spot-on, really. Just one 
other thing, too. We also are lucky enough to have a lot of DHS 
OEC alum who now work at FirstNet, and so the relationships 
that that allows to consistently flow, information, meetings, 
and having those histories together can only be a positive.
    Mr. Payne. Excellent. Well, that is very good to hear. With 
that, Mr. Chairman, I will yield back.
    Mr. Donovan. The Chair now recognizes the gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Payne. He has gone.
    Mr. Donovan. Oh, he has gone. All right. He disappeared on 
me. The Chair now recognizes the gentlewoman from Arizona, who 
is still here, Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    I share your excitement, Mr. Parkinson, about being able to 
move to the next generation of technology and collaboration for 
emergency communications. Again, thinking about how we now use 
our own phones--or when I was in the military, I was a part of 
some of the efforts when we were moving away from everything 
being on voice to moving to more collaborative systems that 
allow instant sharing of information to everybody who needed to 
know it and collaboration at a very high level.
    Some of the challenges I saw, though, implementing some of 
this in the military, No. 1, is culture. I have done a lot of 
ride-alongs with our first responders, and they are very wedded 
to voice communications. So switching to something that is 
going to increase their situation awareness, you are going to 
have to deal with some culture changes across the board.
    A lot of these will be at the local level of leadership, 
building the case as to why this is going to actually help 
them, so that you get the buy-in for the culture change and how 
it is going to help them do their job. There also is data 
management and information management on useful--you know, what 
is useful, what is not, and then really analyzing the 
information.
    There is going to be a lot of spoofing or misinformation 
that is shared via--you know, again, images, texts, other types 
of things. So there is a whole other even manpower requirement 
of those who are going to filter through the new information. 
Then there is training, there are processes. There are a whole 
lot of things that go along with this. So it is not just the 
technology. It is all of these other things.
    It could really be a game-changer for a lot of these first 
responders. But it has to be used with all these other elements 
in order to make it successful. So just wondering if you have 
any perspective on that. Again, I have gone through this myself 
in the military. It is a heavy lift to be able to shift to 
this, but it could be really game-changing for the mission.
    Mr. Parkinson. You are absolutely right, Congresswoman. 
Then think, too, about just the amount of information that is 
going to be out there.
    Ms. McSally. Right.
    Mr. Parkinson. How do you really separate what is real 
versus what isn't?
    Ms. McSally. Exactly.
    Mr. Parkinson. What is important for situational awareness, 
what isn't?
    Ms. McSally. Right.
    Mr. Parkinson. I think, too, the beauty about where we 
stand right now is public safety wanted this. It was really the 
first time we saw law enforcement, fire, and EMTs come together 
back in 2010, 2011 to lead the lobbying effort for the creation 
of FirstNet.
    So today when we travel around to States, localities, 
Tribal nations, the territories, we hear the universal message, 
like when is this coming? When can we get this? I think that in 
itself is our largest asset. It is the men and women on the 
ground.
    I think, too, another point is you are going to see a 
generational shift where you have men and women coming in who 
don't know what a land mobile radio is. They only know what 
this is. That is not a hit on LMR.
    I mean, LMR is going to be here for many, many, many years 
to come. But they only understand--I mean, you only have to 
look around outside here in Emancipation Hall, you know, the 
kids who are just, you know, typing away.
    Who knows what the capabilities are going to be of FirstNet 
and commercial networks in 10 years' time? So I think it is 
going to be crucial that we get not only the buy-in, but really 
it is that fundamental local level of understanding what are 
the needs of public safety and how can we tailor the network 
specific to those needs? That is going to be the 
differentiator.
    Ms. McSally. Yes, and sorting out, again, as you said, what 
is useful, what is not, what is spoofing, because there are 
elements of that, as well. Is there an element where the public 
can also share information? I will just--you know, this 
morning, I actually was dealing with calling in something that 
didn't seem right that I saw. I won't go through all the 
details, but I had a picture that I took of what didn't look 
quite right. By the time I got to the right jurisdiction, I 
said I have a picture to send you, where do I send it to? They 
literally said they didn't have the capacity to get that from 
me.
    I was just--like, I couldn't believe it, in 2017, why we 
don't have the ability for someone to share something quickly. 
So is there an ability for the public to participate? Then 
obviously you have got to filter that out, because you will 
have all sorts of even bad actors, but misinformation that 
would be----
    Mr. Parkinson. You know, in February next year, it is going 
to be 50 years since the first 9-1-1 call from Alabama. It is 
pretty interesting that here we are still today and really the 
way we all use 9-1-1 is picking up the phone and dialing.
    NG9-1-1, next-generation 9-1-1 is coming. While FirstNet's 
focus is the deployment of the NPSBN, we are certainly talking 
to those associations, those groups out there, NENA, APCO and 
others, who are--whose roles and responsibilities are going to 
be for the deployment of NG9-1-1. I know this is something that 
OEC is looking very closely at. I am sure Mr. Goldstein and GAO 
are going to be intimately involved in this. But NG9-1-1 is 
really the answer you are looking for.
    Ms. McSally. That would be the tool, is through the 9-1-1, 
next-generation?
    Mr. Parkinson. As that comes, yes.
    Ms. McSally. Got it. OK, thanks. One last quick question. 
If a State opts out--sorry if somebody asked this already--if a 
State opts out and they are developing their own system, how is 
that going to work if there is some sort of cross-State crisis?
    Mr. Parkinson. Sure. So, really important part of the goals 
of the network is, it is for the Nation. It is not--we can't 
have islands of no service, States of no service. So the law is 
quite clear that there is a process that any opt-out State, if 
they so wish to go down that path, and it is their right to do 
that, if they do so want to, that they have to fulfill certain 
obligations, they have to enter into a procurement process, 
select a vendor, go to the NTIA, go to the FCC, and negotiate 
what is called a spectrum lease agreement with FirstNet.
    So that information has been well-known to the States. They 
have a lot of information how to do it. That process could take 
up to, we believe, 2 years. So it is quite a cumbersome 
process. It certainly lays a large financial obligation onto a 
State. But again, if a State wants to go down that path, we 
will do everything we can at FirstNet to ensure that that opt-
out State is successful and that they seamlessly integrate into 
the NPSBN.
    Ms. McSally. OK, great, thanks. I am over my time. Thanks, 
Mr. Chairman.
    Mr. Donovan. Gentlemen, just in the last minute that we 
have left, is there anything that we haven't hit on that wasn't 
in your opening statements, that maybe some of our questions 
stimulated, that you would like? Or have we covered everything 
with our intelligent questions that we have asked you?
    Mr. Parkinson. Opening myself up here, but I think the main 
thing, Congressman, going forward is FirstNet is the art of the 
possible right now. As you heard, December 28 is when the 
Governor's deadline wraps up, and then deployment will follow, 
and user adoption will follow that.
    We couldn't be more excited. You know, we have done a lot 
of work. It has taken a long time. I mean, 2012 was when the 
law was passed, and here we sit now in 2017. As I said in my 
opening statements, the hard things are hard, but with your 
continued support and with the support of your staff, we 
certainly anticipate making FirstNet a success.
    Mr. Donovan. I thank all of our witnesses for your valuable 
testimony today and for my colleagues for their questions. The 
Members of the subcommittee may have additional questions for 
our witnesses, and we will ask that you respond to those in 
writing. Pursuant to the committee rule VII(D), the hearing 
record will remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:02 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
